U.S. Small Business Administration
Office of Inspector General

 _________________________________


       Semiannual Report to Congress
               Spring 2007




       October 1, 2006 – March 31, 2007
  Inspector General Act Statutory Reporting Requirements

The specific reporting requirements prescribed in the Inspector General Act of 1978, as amended, are
listed below.


Source                                                                                       Page

Section 4(a)(2)    Review of Legislation and Regulations                                      18-19

Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies                              3-18

Section 5(a)(2)    Recommendations with Respect to Significant Problems,
                    Abuses and Deficiencies                                                   35-38

Section 5(a)(3)    Prior Significant Recommendations Not Yet Implemented                      30-34

Section 5(a)(4)    Matters Referred to Prosecutive Authorities                                43-47

Sections 5(a)(5)   Summary of Instances Where Information Was Refused                         None
and 6(b)(2)

Section 5(a)(6)    Listing of OIG Reports                                                     21-22

Section 5(a)(7)    Summary of Significant Audits & Other Reports                               4-18

Section 5(a)(8)    Audit Reports with Questioned Costs                                           23

Section 5(a)(9)    Audit Reports with Recommendations that Funds Be Put to
                    Better Use                                                                   23

Section 5(a)(10)   Summary of Reports From Prior Semiannual Reports
                    Where No Management Decision Was Made                                     25-26

Section 5(a)(11)   Significant Revised Management Decisions                                   None

Section 5(a)(12)   Significant Management Decisions with Which
                    the OIG Disagreed                                                         None

Section 5(a)(13)   Information Described Under Section 05(b) of the Federal
                    Financial Management Improvement Act of 1996                               N/A
                                                         Table of Contents


Overview of SBA and the OIG............................................................................................................................. 1

Agency Management Challenges ......................................................................................................................... 2

Significant OIG Activities .................................................................................................................................... 5

                  Disaster Loans .................................................................................................................................. 5

                  Small Business Access to Capital..................................................................................................... 7

                  Small Business Development, Contracting, Education, and Training............................................ 13

                  Agency Management...................................................................................................................... 15

                  Other Significant OIG Activities.................................................................................................... 17

Statistical Highlights........................................................................................................................................... 19

Appendices

        I.        OIG Reports Issued ........................................................................................................................ 21

       II.        OIG Reports with Questioned Costs .............................................................................................. 23

     III.         OIG Reports with Recommendations that Funds Be Put to Better Use ......................................... 23

     IV.          OIG Reports with Non-Monetary Recommendations .................................................................... 24

       V.         OIG Reports from Prior Semiannual Periods with Overdue Management
                   Decisions as of March 31, 2007.................................................................................................. 25

     VI.          OIG Reports Without Final Action as of March 31, 2007 ............................................................. 27

    VII.          Summary of Significant Recommendations from Prior Semiannual Reporting
                    Periods Without Final Action as of March 31, 2007................................................................... 30

   VIII.          Summary of Significant Recommendations,
                    October 1, 2006 through March 31, 2007 ................................................................................... 35

     IX.          Events/Activities Where SBA Used its Cosponsorship Authority,
                   October 1, 2006 through March 31, 2007 ................................................................................... 39

       X.         Legal Actions Summary, October 1, 2006 through March 31, 2007.............................................. 43

      XI.         OIG Organizational Chart .............................................................................................................. 48
                                                 Table of Contents


Additional Semiannual Legislative Reporting Requirements from the Small Business Act, as Amended:

            SBA Cosponsorship and Fee-Based Administration-Sponsored Events—Small
            Business Act, Section 4(h) ............................................................................................................. 14

            SBDC Surveys—Small Business Act, Section 21(a)(7) ................................................................ 14

            SBA Gift Authority—Small Business Act, Section 4(g)(2)........................................................... 16
                           Overview of SBA and the OIG

The Small Business Administration

The mission of the Small Business Administration (SBA) under the Small Business Act, as amended, is to
maintain and strengthen the Nation’s economy by promoting the development and growth of small
businesses and by assisting in the economic recovery of communities after disasters. To fulfill its
mission, SBA has three programmatic strategic goals that broadly define what the Agency and its
programs are trying to accomplish These goals are to “Improve the economic environment for small
businesses”; “Increase small business success by bridging competitive opportunity gaps facing
entrepreneurs”; and “Restore homes and businesses affected by disaster.” A fourth strategic goal,
“Ensure that all SBA programs operate at maximum efficiency and effectiveness by providing them with
high quality executive leadership and support services,” defines the responsibility of the Agency’s
executive leadership and support functions to help accomplish the programmatic goals.

SBA is organized around four key functional areas: financial assistance (e.g., loan programs); contracting
assistance; technical assistance (e.g., entrepreneurial development); and disaster assistance. The Agency
also represents small businesses through an independent advocate and an ombudsman. SBA headquarters
is located in Washington, D.C., while its business products and services are delivered with the help of
10 regional offices, 68 district offices, 4 Disaster area offices, and a vast network of resource partners in
all 50 States, the District of Columbia, Puerto Rico, American Samoa, the U.S. Virgin Islands, and Guam.
SBA’s appropriation for Fiscal Year (FY) 2007 is $571 million. As of March 31, 2007, SBA had
2,240 employees, including Office of Inspector General (OIG) personnel, but excluding disaster-funded
employees. There were 2,434 temporary and permanent disaster employees, excluding contractors.

The Office of Inspector General

Pursuant to the Inspector General Act of 1978, as amended, the OIG adds value to SBA programs and
operations by providing auditing, investigative, and other services to support and assist the Agency in
achieving its statutory mission. The OIG strives to identify significant issues and offer recommendations
to correct or eliminate problems and fraudulent schemes that adversely impact the efficiency,
effectiveness, or integrity of SBA’s programs and operations.

The OIG has four divisions that perform the key functions described below.

    •   The Auditing Division performs financial, information technology and other mandated audits,
        program performance reviews, and internal control assessments, and oversees audits by
        contractors to promote the economical, efficient, and effective operation of SBA programs.

    •   The Investigations Division manages a program to detect and deter illegal and/or improper
        activities involving SBA programs, operations, and personnel. The criminal investigations staff
        carries out a full range of traditional law enforcement functions. The security operations staff
        ensures that all Agency employees have the appropriate background investigations and security
        clearances for their duties, and conducts the name check program, which provides SBA officials
        with character-eligibility information on loan applicants and other potential program participants.

    •   The Counsel Division provides legal and ethics advice to all OIG components, represents the
        OIG in litigation arising out of or affecting OIG operations, assists with the prosecution of civil
        enforcement matters, processes subpoenas, responds to Freedom of Information and Privacy Act


                                                     1
                           Overview of SBA and the OIG

        requests, and reviews and comments on proposed Agency policies, regulations, legislation, and
        procedures.

    •   The Management and Policy Division provides business support (e.g., budget/financial
        management, human resources, information technology, and procurement) for the various OIG
        functions, coordinates the preparation of the Semiannual Report to Congress and the Report on
        SBA’s Management Challenges, and develops OIG strategic and performance plans.

The OIG’s headquarters is located in Washington, DC., and has field staff located in Atlanta, GA,
Chicago, IL, Dallas, TX, Detroit, MI, Denver, CO, Herndon, VA, Houston, TX, Kansas City, MO,
Los Angeles, CA, Miami, FL, New Orleans, LA, New York, NY, Philadelphia, PA, Tacoma, WA, and
Washington, DC.

An organization chart for the OIG can be found in Appendix XI.

OIG Work During This Reporting Period

As of March 31, 2007, the OIG had 101 staff on-board. The OIG’s FY 2007 appropriation is
$15.3 million, including a $1.5 million transfer for disaster assistance oversight activities. In addition, a
supplemental appropriation during FY 2006 provided the OIG with $5 million in “no-year” funds for Gulf
Coast hurricane disaster oversight.

During this reporting period, OIG activities focused on the two strategic goals in our FY 2006-2011
Strategic Plan: “Improving the economy, efficiency, and effectiveness of SBA programs and operations,”
and “Promoting and fostering integrity in SBA programs and operations.” Using this framework, the OIG
concentrated on critical risks facing SBA, including: risks of financial losses due to SBA's downsizing,
centralization, and limited oversight and controls; risks to SBA's performance of its statutory mission to
promote small business development and Government contracting; and risks associated with SBA's
information technology and financial management systems and other internal operations.

The challenges and risks facing the Agency increased significantly with the devastation from the
hurricanes that hit the Gulf Coast during 2005. The OIG has undertaken a series of reviews of the
management of SBA’s disaster assistance process, the loan application approval process, loan
disbursement activities, use of proceeds, and SBA’s loan processing system, known as the Disaster Credit
Management System (DCMS). The OIG is also directing significant investigative efforts toward
detecting and deterring fraud related to the SBA Disaster Loan program.

OIG efforts and accomplishments during the first six months of FY 2007 are summarized in this report.
Audits and related activities during this reporting period are listed in Appendix I. Investigative actions
are summarized in Appendix X. Copies of this report and other OIG reports and work products are
available on the OIG’s website at http://www.sba.gov/ig/igreadingroom.html.




                                                     2
                        Agency Management Challenges

OIG Issues FY 2007 Report on SBA’s Top Management Challenges

In accordance with the Reports Consolidation Act of 2000,
each fiscal year the OIG identifies the most serious           The Management Challenges represent
management and performance challenges facing the                  areas which the OIG considers to be
Agency for inclusion in SBA’s Performance and                   particularly vulnerable to fraud, waste,
Accountability Report. The Management Challenges                  abuse,  or mismanagement, or which
represent areas which the OIG considers to be particularly        otherwise  pose significant risk to the
vulnerable to fraud, waste, abuse, or mismanagement, or        Agency, its operations, or its credibility.
which otherwise pose significant risk to the Agency, its
operations, or its credibility. Each Management Challenge generally has originated from one or more
OIG or Government Accountability Office (GAO) report. For each Management Challenge, the OIG
provides the Agency with recommended remedial actions together with our assessment of Agency
progress on each recommended action during the preceding fiscal year.

The Management Challenges identified in the OIG’s FY 2007 report, issued on October 16, 2006, were as
follows.

  •   Procurement flaws allow large firms to obtain small business awards and agencies to count
      contracts performed by large firms towards their small business goals.
  •   SBA faces significant challenges in financial management and reporting, which affect its ability to
      provide reliable, timely and accurate financial information.
  •   Information systems security needs improvement.
  •   Maximizing program performance requires that SBA fully develop, communicate, and implement a
      human capital management/transformation strategy.
  •   SBA’s National Guaranty Purchase Center needs better controls over the business loan purchase
      process.
  •   SBA needs to effectively implement its participant oversight plan.
  •   The Section 8(a) Business Development (BD) program needs to be modified so more firms receive
      business development assistance, standards for determining economic disadvantage are clear and
      objective, and SBA ensures that firms follow 8(a) regulations when completing contracts.
  •   The current practices of the SBIC (Small Business Investment Company) program place too much
      risk on taxpayer money.
  •   Preventing loan agent fraud requires additional measures.
  •   SBA needs to continue its efforts to update its system of directives to provide proper guidance and
      control over its operations.

The FY 2007 Management Challenges Report is available                     on   the   OIG’s   website    at
http://www.sba.gov/ig/FY2007_management_challenges.pdf.

As in prior years, the FY 2007 report used a color-scoring scheme to show Agency progress in addressing
the actions needed to resolve each Management Challenge. Following is a summary of the ten
Management Challenges in the FY 2007 report, and the status of any progress by the Agency in
addressing the Challenges. (As discussed below, the second Challenge has since been eliminated.)




                                                    3
                         Agency Management Challenges

                        Summary of SBA’s FY 2007 Management Challenges
                                                    Status Score                        Change in Status
                  Topic                  Green     Yellow Orange           Red       Improved    Worsened
  1    Small Business Contracts                                3
  2    Financial Reporting                 4         2                                   4
  3    IT Security                                   8         2             1           4
  4    Human Capital                                 4         2                         1
  5    Loan Guaranty Purchase                        1         4                         1              2
  6    Lender Oversight                    3         5         4             2           6
  7    8(a) BD Program                     1                   2             3           1              1
  8    SBIC Program                        1         1         4             1           2              1
  9    Loan Agent Fraud                              2         3             1           2              1
 10    Policies and Procedures             1         3                                   3
         “Improved” refers to an action item that showed progress this year over last year’s score.
         “Worsened” refers to an action item that showed regression this year from last year’s score.

While Agency progress on a number of the challenges has been encouraging, much more remains to be
done. By their nature, these challenges require continued long-term commitment and effort by the
Agency.

SBA Overcomes Financial Management and Reporting Challenge

SBA has made improving financial management one of its top priorities. The Agency has worked
diligently to identify and address the underlying causes of its financial management issues, improve its
                                                        models for estimating the Agency’s subsidy
SBA has made improving financial management             costs, improve controls over financial statement
one of its top priorities…. The Agency’s                preparation, and adhere to all reporting
demonstrated progress in this area has resulted in      deadlines. The Agency’s demonstrated progress
two successive unqualified audit opinions on its        in this area has resulted in two successive
financial statements.                                   unqualified audit opinions on its financial
                                                        statements. Therefore, subsequent to issuance of
the FY 2007 Management Challenges report, the OIG eliminated Challenge 2, “SBA faces significant
challenges in financial management and reporting, which affect its ability to provide reliable, timely, and
accurate financial information.”




                                                        4
                                  Significant OIG Activities

                                             Disaster Loans
The Disaster Loan program plays a vital role in the aftermath of disasters by providing long-term, low-
interest loans to affected homeowners, renters, and businesses of all sizes. There are two types of disaster
loans: (1) physical disaster loans for permanent rebuilding and replacement of uninsured or underinsured
disaster-damaged privately-owned real and/or personal property, and (2) economic injury disaster loans to
provide necessary working capital to small businesses until normal operations resume after a disaster.
Physical disaster loans are available to homeowners, renters, businesses of all sizes, and nonprofit
organizations. The Disaster Loan program is particularly vulnerable to fraud and unnecessary losses
because loan transactions are expedited in order to provide quick relief to disaster victims.

On August 29, 2005, Hurricane Katrina devastated the Gulf Coast regions of Louisiana, Mississippi, and
Alabama. Katrina was the third most intense hurricane to hit the United States in recorded history, and
the sixth strongest recorded in the Atlantic Basin. It was quickly followed by Hurricanes Rita and Wilma,
creating further loss of lives and property in Florida and Texas. As of March 31, 2007, SBA had
approved almost 120,000 disaster loans, totaling $7.13 billion, in the aftermath of the Gulf Coast
hurricanes, and had fully disbursed more than 100,000 disaster loans, totaling $4.8 billion. Including
loans that have been partially disbursed, the Agency has made full or partial disbursements on 98 percent
of the approved loans, for a total of $5.3 billion.

Given the broad scope of SBA’s Gulf Coast hurricane disaster assistance efforts, OIG audit and
investigations work will focus heavily on this area for the foreseeable future. The OIG has a number of
audits and reviews underway or planned.

OIG Receives Complaints About Expedited Loan Processing

The OIG received multiple complaints about expedited loan processing activities at SBA’s Loan
Processing and Distribution Center in Fort Worth, Texas. One complaint, which was made in
October 2006, alleged that during the SBA’s “90-in-
45” loan disbursement campaign1 loans were                      One complaint…alleged that…loans were
disbursed contrary to borrowers’ wishes and without          disbursed contrary to borrowers’ wishes and
necessary documentation. The complaint also stated                      without necessary documentation.
that loan quality standards were relaxed, original
mortgage documents needed to secure collateral were destroyed, and staff and resources were poorly
utilized. Subsequent complaints alleged that SBA improperly canceled approved loans during four
separate campaigns in FY 2006. The complaints also alleged that borrowers withdrew their applications
due to a lack of assistance from SBA, and that loan officers were not allowed to assist borrowers in
obtaining required documentation or to maintain loan files beyond a week’s time. The OIG has initiated
several reviews in response to these complaints and will issue reports addressing the issues raised.




1
    Because rebuilding efforts had progressed slowly, questions arose about whether SBA’s disbursement process was
    too slow. To reduce the backlog of loans, on October 2, 2006, SBA initiated the “90-in-45” campaign. The
    campaign’s name referred to the goal of disbursing funds on the backlog of 90,000 plus loans associated with
    Hurricanes Katrina, Rita, and Wilma within 45 days.


                                                         5
                              Significant OIG Activities

Agencies Combine Efforts to Target Gulf Coast Hurricane Fraud

In concert with other law enforcement entities on the Hurricane Katrina Fraud Task Force, the OIG had
27 open cases and obtained 19 indictments and
8 convictions as of March 31, 2007. The 27 open cases,               …the OIG had 27 open cases and
involving loan amounts totaling nearly $6 million, relate to obtained 19 indictments and 8 convictions
allegations of false statements involving residency at the                      as of March 31, 2007.
time of the Gulf Coast hurricanes, nonexistent property damage to homes and businesses, and misuse of
loan proceeds. As additional loan amounts are disbursed, and the 12-month deferral of principal and
interest payments for disaster loans comes to an end, the OIG anticipates an increase in both fraud
referrals and loss exposure to SBA. Examples of OIG cases related to the Gulf Coast hurricanes include
the following.

    •   A Louisiana woman filed applications for SBA and Federal Emergency Management Agency
        (FEMA) disaster benefits falsely claiming to have suffered damages from Hurricane Katrina.
        Based on her claim using a nonexistent address, she received an initial disbursement of $10,000
        of a $40,000 SBA disaster loan, as well as FEMA benefits. She pled guilty and was sentenced to
        60 months probation and $10,000 in restitution. The OIG conducted the investigation jointly with
        the Department of Homeland Security (DHS) OIG.

    •   An individual was indicted for claiming his primary residence was in Mississippi at the time of
        the Gulf Coast hurricanes, when he actually resided in Maryland. He was approved for an SBA
        loan of $208,300, of which $10,000 was disbursed. He also received nearly $16,000 from
        FEMA. The OIG conducted this investigation jointly with the DHS OIG and the Mississippi
        State Auditor’s Office.

Fraud Persists in 9/11 Disaster Loans Made to Small Business Victims

Over $1.1 billion in SBA disaster assistance loans went to small business victims of the September 11th
terrorist attacks. Unfortunately, as in other disasters, dishonest applicants took advantage of the need to
disburse funds quickly to legitimate victims to fraudulently obtain Federal funds. Frequently, these
schemes are not discovered quickly because loan repayments are typically deferred.

OIG investigations have resulted in the prosecution of numerous individuals who used this national
tragedy to commit fraud for personal gain. For example, the co-owner of a charter plane company in
                                                  Alabama was indicted for wire fraud, personal income
When the loan went into liquidation for           tax evasion, fraudulent conversion of SBA collateral,
non-payment, he sold two properties held as       and forgery of a government seal in connection with a
collateral for the loan by producing              nearly $178,000 economic injury disaster loan that he
fraudulent documents…                             obtained after the terrorist attacks. When the loan went
                                                  into liquidation for non-payment, he sold two properties
held as collateral for the loan by producing fraudulent documents indicating that SBA had released its lien
against the properties. As a result, he received over $92,000 that should have been paid to SBA. This
case resulted from a referral by SBA’s Santa Ana Liquidation Center. The OIG is conducting this joint
investigation with the Internal Revenue Service (IRS) and the Auburn Alabama Police Department.




                                                    6
                               Significant OIG Activities

                            Small Business Access to Capital
SBA has a financial assistance portfolio of small business loans and financings exceeding $67 billion.
With more than 5,000 lenders authorized to make SBA loans, the Section 7(a) Loan Guaranty program is
SBA’s largest lending program and the principal vehicle for providing small businesses with access to
credit which cannot be obtained elsewhere. This program is vulnerable to fraud and unnecessary losses
because it relies on numerous third parties (e.g., borrowers, loan agents, and lenders) to complete loan
transactions. Approximately 80 percent of loans guaranteed annually by SBA are made by lenders to
whom SBA has delegated loan-making authority. Additionally, SBA has centralized many loan functions
and reduced the number of staff performing these functions. Since 2001, SBA’s staffing has decreased by
more than 25 percent while the number of SBA-guaranteed loans funded has more than doubled. As SBA
has placed more responsibility and independence on its lenders, the need for OIG oversight has increased
significantly.

Another vehicle for capital, the SBIC program, was established in 1958 to stimulate and supplement the
flow of private equity capital and long-term debt to small business concerns using private venture capital
firms and SBA-guaranteed funding. The program is being revamped because it cost about $2 billion
more than anticipated from FY 1993 to FY 2004. Finally, small and emerging contractors who cannot
obtain surety bonds through regular commercial channels can apply for SBA bonding assistance under the
Surety Bond Guarantee program.

SBAExpress and CommunityExpress Loan Purchase Process Did Not Detect Material Lender
Deficiencies

After an SBA-guaranteed loan goes into default and the lender requests SBA to pay (or “purchase”) the
guaranty, SBA procedures call for an agency review of lender documentation to determine whether the
lender properly administered the loan. During this reporting period, the OIG conducted an audit of the
Agency’s guaranty purchase review process for loans made under the SBAExpress and
CommunityExpress programs. The purpose
of the audit was to determine whether SBA                        …SBA purchased up to $130.6 million in
properly identified lender deficiencies that       guaranties…without      obtaining information needed to
would have affected purchase decisions and           assess  whether  lenders  verified borrower use of loan
adequately monitored efforts made by lenders               proceeds  and financial   information or properly
to recovery the debt through liquidation of the          determined   their eligibility and creditworthiness.
collateral. The OIG’s review disclosed that
SBA purchased up to $130.6 million in guaranties on SBAExpress and CommunityExpress loans without
obtaining information needed to assess whether lenders verified borrower use of loan proceeds and
financial information or properly determined their eligibility and creditworthiness. SBA also erroneously
paid approximately $304,000 in additional guaranties on CommunityExpress loans where borrowers may
not have been provided with the required technical assistance. In addition, the OIG identified two lenders
who did not disclose material facts on two loans that were purchased for $27,134 that would have
impacted the purchase decisions. Finally, SBA did not refer timely to the Department of Treasury for
collection $25 million in purchased loans that were over 180 days delinquent, as required by the Debt
Collection Act.

The OIG recommended that SBA: (1) review all loans approved after January 1, 2000, and purchased
before February 1, 2005, to ensure that lenders complied with program requirements; (2) revise program


                                                     7
                              Significant OIG Activities

guidance to ensure that lenders provide adequate documentation at the time of purchase request and that
Agency personnel review this information; (3) seek recovery of erroneous payments made to lenders; and
(4) properly monitor purchased loans and make timely referrals to the Department of Treasury. SBA
agreed or proposed alternative corrective actions that were responsive to the OIG’s recommendations.

Joint Investigation Uncovers Massive Loan Fraud

In January 2007, agents from the OIG and the U.S. Secret Service arrested 18 individuals sought in
                                               connection with a scheme in which a non-bank lender’s
…he fraudulently caused the lender to          former executive vice president and others conspired to
originate as many as 76 loans totaling         fraudulently qualify loan applicants for SBA-guaranteed
almost $77 million…                            loans. The loans were primarily for the purchase of gas
                                               stations. The executive vice president was indicted for
conspiracy, wire fraud, tampering with witnesses, and making false declarations to a grand jury and a
bank. The indictment alleged that he fraudulently caused the lender to originate as many as 76 loans
totaling almost $77 million, and that SBA had already paid claims totaling approximately $28.4 million
on these loans. Three other individuals were indicted for conspiracy and making false statements. The
first two allegedly obtained a $944,000 SBA-guaranteed loan through fraud, and the third allegedly
facilitated the fraud by providing phony bank documentation to verify the required equity injection. SBA
paid over $709,000 on this defaulted loan. In addition, a former assistant vice president of another
financial institution was indicted for conspiracy and misapplication of bank funds. She allegedly supplied
false verifications of deposits for loan applicants and gave a loan broker unfunded cashier’s checks to be
used in the loan closings.

As a result of this investigation, the non-bank lender repurchased
guaranties from SBA on three fraudulent loans, resulting in          …the lender repaid SBA over $9.6
administrative recoveries of over $1.8 million, and terminated its      million for 19 fraudulent loans
guaranties on two other fraudulent loans that SBA had not yet             identified in the investigation.
purchased, resulting in cost savings of over $1.4 million. In
addition, the lender repaid SBA over $9.6 million for 19 fraudulent loans identified in the investigation.
Consequently, as of March 31, 2007, SBA recoveries and cost savings totaled over $12.9 million.

This ongoing investigation was based on information from the U.S. Attorney’s Office in Detroit,
Michigan, and is being conducted jointly with the U.S. Secret Service.

SBA’s Corrective Action Process Resulted in On-Site Reviews of Only a Small Percentage of Large
Lenders

The OIG issued an audit report that addressed whether SBA had fully and timely implemented
Of the 350 lenders subject to on-site         appropriate actions to correct lender deficiencies identified
reviews, only 125 were reviewed during        during on-site examinations or by other means. The audit
FYs 2005 and 2006.                            determined that SBA had strengthened its oversight
                                              process by expanding the scope of lenders to be reviewed,
providing more detailed reports to lenders, and requiring corrective actions when deficiencies were
identified. However, the process had not been fully implemented. Of the 350 lenders subject to on-site
reviews, only 125 were reviewed during FYs 2005 and 2006. Also, SBA did not notify lenders in a
timely manner of deficiencies noted in the reviews, taking an average of 6 to 12 months after the end of



                                                    8
                              Significant OIG Activities

the reviews to transmit the results. Lastly, because
deficiencies noted during on-site reviews for 113 loans        …SBA may have inappropriately honored
either were not recorded in the Delinquent Loan Collection                 guaranties totaling $734,676…
System, or were not recorded timely, SBA may have
inappropriately honored guaranties totaling $734,676 for 8 of these loans.

The OIG recommended that SBA: (1) ensure that all large lenders receive on-site reviews and
examinations every 12 to 24 months, and that lender deficiencies identified during the reviews be
recorded in a timely manner, and (2) seek recovery of the inappropriately honored guaranties. SBA
responded that actions had been taken or were in process to address the recommendations, including
evaluating the purchased guaranties that were identified for recovery.

SBA Purchased Guaranties for Loans that Were Not Properly Originated or Serviced By Lenders.

As part of an ongoing review of SBA’s guaranty purchase process, the OIG randomly selected purchased
loans to assess the accuracy of the guaranty purchase process and project the overall level of erroneous
                                                payments. The OIG will issue a report on this review
These reports identified material lender        during the next semiannual reporting period. In addition,
deficiencies in originating, servicing and      when the OIG finds that SBA has purchased a loan
liquidating SBA loans…                          guaranty despite material lender deficiencies, a loan-
                                                specific audit report is issued so that SBA can recover the
identified erroneous payment. The OIG issued individual audit reports on eight such loans during this
reporting period. These reports identified material lender deficiencies in originating, servicing and
liquidating loans that were not identified by SBA during the guaranty purchase process, and
recommended recovery of the more than $800,000 in overpayments. The lender deficiencies identified in
the audits included failure to: substantiate the use of loan proceeds; correctly apply loan payments on
loans in liquidation status; verify borrower equity injection; verify borrower repayment ability; properly
determine the value of a business being purchased; conduct timely site visits; inventory, assess, and
secure collateral; and consider character issues during loan origination.

For example, one lender disbursed $358,071 directly to             …the lender did not comply with SBA
the borrower to purchase inventory, but did not obtain          requirements in determining the value of
copies of paid receipts, vendor invoices, or other                      the business being purchased…
documentation showing that the borrower actually used
the proceeds as intended. On another loan, the lender did not comply with SBA requirements in
determining the value of the business being purchased even though the selling price was questionable and
the change of ownership was not at arm’s length. The equity injection that was required of the borrower
was actually provided by the seller and, therefore, the lender may have provided 100 percent financing,
which SBA procedures prohibit. Lastly, the lender did not consider all of the borrower’s consumer debt
and, as a result, improperly calculated repayment ability.

SBA has Limited Role in Identifying International Trade Constraints

In response to a congressional request, the OIG undertook a review of SBA’s international trade
facilitation activities and issued a report on the results of this review. The review found that, in the
general course of its work, SBA had identified key international trade constraints confronting small
businesses seeking markets abroad for their products and services, but had not attempted to formally



                                                    9
                              Significant OIG Activities

survey small businesses or conduct any other structured information-gathering activities. Instead, it
looked to the Department of Commerce as the lead           …SBA had identified key international trade
Federal agency in disseminating trade promotion          constraints confronting small businesses…but
information, developing business leads, and                   had not attempted to formally survey small
facilitating matchmaking for all sizes of U.S.               businesses or conduct any other structured
businesses. The review also found that SBA has                           information-gathering activities.
focused its modest resources on assisting small
businesses mostly with export finance assistance. Finally, although SBA is a member of the Trade
Committee, it plays only a minor role, has a minimal share of the total budget authority as compared with
other members of the committee, and does not have its annual accomplishments and upcoming trade plans
sufficiently described in the Trade Committee’s most recent annual strategic document, The 2006
National Export Strategy.

The OIG recommended that SBA’s Associate Administrator for International Trade work with the U.S.
Trade Representative (USTR) to fill, on a permanent basis, a vacant SBA position assigned to USTR to
ensure that small business trade constraints continue to be communicated to USTR negotiators in an effort
to secure needed relief in new multilateral and bilateral trade agreements. The OIG also recommended
that the SBA work with other Trade Committee member agencies to ensure greater integration with the
National Export Strategy of performance measures for international trade activities as reported by those
agencies in their respective Performance and Accountability Reports. Finally, the OIG recommended that
an electronic matchmaking portal be created through the Office of International Trade’s Web site, which
would match U.S. small businesses seeking export markets with importing concerns abroad. SBA agreed
with the report recommendations.

Loan Agent Fraud Continues to Harm SBA Loan Programs

A loan agent is employed by a prospective borrower or a lender to prepare the documentation for a SBA
loan application and/or refer the borrower to a lender (or vice versa). Honest loan agents have linked
small businesses to sources of capital, while dishonest agents have perpetrated frauds involving hundreds
of millions of dollars in loans. Moreover, loans associated with loan agent fraud often default for non-
payment, which increases loses in the loan guaranty program.

                                               In one case, a former title company escrow officer, a
…a former title company escrow officer, a
                                               mortgage broker, and others intended to defraud SBA
mortgage broker, and others intended to
                                               and a lender of more than $1.8 million in connection
defraud SBA and a lender of more than
                                               with the purchase of a warehouse. The co-conspirators’
$1.8 million in connection with the
                                               land-flip scheme involved the false representation of a
purchase of a warehouse.
                                               $2.2 million sales price and false documentation of a
$375,000 equity injection. The defendants also laundered approximately $473,000 of the loan proceeds.
The escrow officer and broker were found guilty of conspiracy, bank fraud, and money laundering. Two
of the other co-conspirators previously pled guilty and three others have been charged but remain
fugitives. The OIG conducted this investigation with assistance from the Texas Comptroller of Public
Accounts/Criminal Investigations Division.

The OIG’s FY 2007 Management Challenges Report identifies loan agent fraud as one of the top
challenges for the Agency and makes recommendations to deter loan agent abuse. For example, SBA
does not currently know the magnitude of the loan agent problem because it collects little information



                                                   10
                               Significant OIG Activities

about loan agent involvement with its loans. The Agency needs to systematically identify all loan agents
and track their association with individual loans. This is critical to identifying corrupt loan agents, since
loan agents have opportunities for contacts with multiple lenders and due diligence in loan processing
varies greatly among lenders.

Borrowers Increasingly Falsify Capital Injection

SBA procedures require that borrowers inject available capital towards a project being financed by an
SBA-guaranteed loan. Capital injection represents a borrower’s own financial stake in a business, in
addition to the loan. A borrower who has something personal to lose is less likely to default on a loan.
Unfortunately, borrowers increasingly are falsifying the amount of their capital injection. The following
examples illustrate this problem.

    •   The business manager of a now-defunct Pennsylvania supermarket obtained a $993,000 SBA-
        guaranteed loan to assist his business in purchasing another company, which happened to belong
        to his mother. He submitted false documentation showing a $250,000 cash injection into the
        business and provided forged power of
        attorney documents to improperly                    He submitted false documentation showing a
        pledge collateral not belonging to him.            $250,000  cash injection into the business, and
        The manager pled guilty to wire fraud            provided forged  power of attorney documents to
        and aiding and abetting. The OIG               improperly pledge collateral not belonging to him.
        conducted this joint investigation with
        the Federal Bureau of Investigation
        (FBI).

    •   The owner of a small California airplane parts business and the previous owner of another small
        airplane parts business were indicted for wire fraud and aiding and abetting. The investigation
        found that the first company obtained a $999,000 SBA-guaranteed loan to purchase the latter
        company. The owner of the first company failed to disclose that he had borrowed the $125,000
        cash injection from an associate of the seller of the second company. The loan defaulted, and
        SBA purchased the loan guaranty. This case was referred by the U.S. Attorney’s Office in Boise,
        Idaho. The OIG is conducting this investigation jointly with the FBI.

Borrowers Continue to Falsely Claim Citizenship

Some prospective borrowers, either individually or with the help of dishonest loan agents, use well-
planned schemes to falsely claim U.S. citizenship when applying for SBA-guaranteed loans. Such loans
often default quickly, with millions of dollars at risk. Equally troubling is the fact that loans to such
ineligible borrowers can deprive honest loan applicants of access to reasonable SBA-backed financing.

In one case, a Chicago area business owner applied for a $594,000 loan under SBA’s Section 504 loan
…the business owner again admitted he was       program, claiming on the application to be a U.S.
not a U.S. citizen, but presented a counterfeit citizen.      When SBA requested evidence of
                                                naturalization, the owner admitted he was not a U.S.
certificate of naturalization and offered a
                                                citizen, but requested a meeting with an SBA official.
$5,000 cash bribe to the SBA official.
                                                The official contacted the OIG and agents from the
                                                OIG videotaped the meeting at which the business



                                                     11
                               Significant OIG Activities

owner again admitted he was not a U.S. citizen, but presented a counterfeit certificate of naturalization
and offered a $5,000 cash bribe to the SBA official. The applicant had hired a graphic artist to create the
counterfeit certificate. The applicant pled guilty to bribery of a public official, and the graphic artist was
convicted of possession of fictitious or fraudulent identification cards. This ongoing investigation is
being conducted jointly with the Department of Homeland Security/Immigration and Customs
Enforcement. The Illinois District Office provided significant cooperation in this case.

Criminals Use a Variety of Fraudulent Tactics to Obtain SBA-Backed Loans

Criminals use a variety of methods in attempts to fraudulently obtain SBA-guaranteed loans, or to induce
others to obtain such loans. These methods include: submitting fraudulent documents; making fictitious
asset claims; manipulating property values; and failing to disclose debts, prior criminal records, or the fact
that they have obtained other SBA-backed loans. In addition, borrowers use loan proceeds contrary to the
terms of the loans. Such practices increase the chances of financial loss to SBA and its lenders. The
following examples, in addition to those discussed above, demonstrate how far individuals will go to
fraudulently obtain SBA loans.

    •   A Texas man secured a $1 million loan by submitting an inflated purchase contract that showed a
        sales price of $1,320,000 for a convenience store, when the actual price was under $789,000. The
        lender disbursed loan proceeds of $1 million based on these and other misrepresentations. The
        man was sentenced to 6 months home confinement, 3 years probation, and over $624,000 in
        restitution for conspiracy to commit bank fraud. The OIG conducted this investigation jointly
        with the Texas Alcohol and Beverage Commission.

    •   A former Washington State business owner inflated his personal financial statement and failed to
        disclose a prior bankruptcy when applying for
        a $1.5 million SBA-guaranteed loan to                     A former…business owner inflated his
        purchase a cabinet-making business. He also            personal financial statement and failed to
        submitted the same false financial statement to   disclose a prior bankruptcy when applying for
        a financial institution to obtain a $400,000              a $1.5 million SBA-guaranteed loan…
        business line of credit. The individual was
        sentenced to 12 months and 1 day in prison, and 5 years supervised release, and was ordered to
        pay restitution of over $886,000, for making false statements to SBA and a bank. This case was
        originally referred to the OIG by a lender.

    •   A Virginia Internet-based company victimized at least 600 people in a scam that promised to
        provide a comprehensive business plan and an SBA-guaranteed loan in exchange for a $3,500
        fee. The company lauded a 90 percent success rate in obtaining loans for its customers, and
        advertised that it was a member in good standing with the Ethical Internet Buyers Bureau (EIBB).
        The investigation disclosed that the business plans were worthless, that only one or two
        businesses ever received an SBA loan, and that the founders and operators of EIBB were in fact
        co-conspirators in the fraud. The former president of the firm pled guilty to mail fraud, tax
        evasion, and engaging in a monetary transaction in criminally derived property. This case was
        based on a referral from SBA’s Richmond District Office. The OIG conducted this joint
        investigation with the U.S. Postal Inspection Service and the IRS.




                                                     12
                              Significant OIG Activities

Small Business Development, Contracting, Education, and Training
Through its government contracting programs, SBA works to maximize opportunities for small, women,
and minority-owned and other disadvantaged businesses to obtain Federal contract awards. These
programs include, among others, the Historically Underutilized Business Zone (HUBZone)
Empowerment Contracting program, and the Small Disadvantaged Business (SDB) Certification
program. SBA also negotiates with other Federal agencies to establish procurement goals for contracting
with small, disadvantaged, women-owned, service-disabled-veteran-owned, and HUBZone businesses.
The current government-wide goal is for small businesses to receive 23 percent of the total value of prime
contracts awarded each fiscal year.

SBA’s Section 8(a) Business Development program offers a broad scope of assistance to socially and
economically disadvantaged firms. Regulations permit 8(a) companies to form beneficial teaming
partnerships, and allow Federal agencies to streamline the contracting process. SBA has also
implemented the Mentor-Protégé program to allow new 8(a) companies to learn from experienced
businesses. These businesses teach 8(a) and other small companies how to compete in the Federal
contracting arena and how to take advantage of greater subcontracting opportunities available from large
firms as a result of public-private partnerships. Program goals require 8(a) firms to maintain a balance
between their commercial and government business. There is also a limit on the total dollar value of sole-
source contracts that a company can receive while in the program – $100 million or 5 times the value of
its primary Standard Industrial Classification (SIC) code. The overall program goal is to graduate firms
which experience sufficient success to be able to thrive in a competitive business environment.

In addition, SBA provides assistance to existing and prospective small businesses through a variety of
counseling and training services offered by partner organizations. Among these are Small Business
Development Centers (SBDCs), the Service Corps of Retired Executives (SCORE), and Women’s
Business Centers (WBCs). Most of these are grant programs that require effective and efficient
management, outreach, and service delivery.

SBA Accepted Contracts That Did Not Meet 8(a) Requirements

The OIG reviewed two 8(a) sole-source dredging contracts to determine the validity of allegations that the
contracted work was performed by large contractors in
                                                                 …large businesses performed 86 to 98
violation of small business procurement laws and
                                                           percent of the dredging work and materially
contrary to 8(a) program requirements. The audit
substantiated the allegations, determining that large          benefited from contracts that were sole-
businesses performed 86 to 98 percent of the dredging                      sourced to 8(a) participants.
work and materially benefited from contracts that were
sole-sourced to 8(a) participants.

The OIG recommended that SBA take steps to: ensure that procurements are not accepted for 8(a)
awards without sufficient information to determine whether the 8(a) participants are performing the
required percentage of work; perform required reviews of procuring agencies; provide sufficient oversight
resources to its district offices; and revise the size standard for dredging companies. The OIG also
recommended that SBA determine whether its inability to effectively monitor the 8(a) and Mentor
Protégé programs should be reported as a material weakness in the Administrator’s FY 2007 internal
control assurance statement. SBA generally agreed with the report recommendations, but did not provide


                                                   13
                               Significant OIG Activities

target dates or propose fully responsive actions for some of the recommendations.            Consequently,
additional information was requested from the Agency.

Former SBA Official Violated the Integrity of the 8(a) Program

                                                 As part of a continuing effort to ensure that SBA
…he accepted monthly cash payments               officials who are entrusted with the power to spend or
totaling over $30,000 in exchange for            direct public funds carry out their duties honestly, the
awarding over $16 million in SBA 8(a) sole       OIG investigates allegations of public corruption.
source contracts to a contractor.                During this reporting period, the former head of the
                                                 SBA’s 8(a) division in Puerto Rico was sentenced to
4 years in prison and 2 years supervised release. A joint SBA OIG, General Services Administration
(GSA) OIG, and FBI investigation found that he accepted monthly cash payments totaling over $30,000
in exchange for awarding over $16 million in SBA 8(a) sole source contracts to a contractor. The
contractor pled guilty and was sentenced in a separate bribery case. This investigation was based on a
referral from the FBI.

OIG Reports on SBA’s Cosponsorships and Fee-Based Administration Sponsored Events

Section 4(h) of the Small Business Act, as amended, requires the OIG to report to Congress on a semi-
annual basis regarding the Agency’s use of its authority in connection with cosponsorships and fee-based
Administration-sponsored events. SBA’s Office of Strategic Alliances provided information to the OIG
related to cosponsorships, including the names, dates, and locations of the cosponsored events, and the
names of cosponsors. As shown in Appendix IX, between October 1, 2006 and March 31, 2007, there
were 26 cosponsored events. SBA reported that it did not conduct any fee-based Administration-
sponsored events during this period.

Legislation Requires Approval of SBDC Surveys

Section 21(a)(7) of the Small Business Act, as amended, imposes restrictions on the disclosure of
information regarding individuals or small businesses that have received assistance from an SBDC, and
further restricts the Agency’s use of such information. The provision also requires the Agency to issue
regulations regarding disclosures of such information for use in conducting financial audits or SBDC
client surveys. In addition, paragraph 21(a)(7)(C)(iii) states that, until the issuance of such regulations,
any client survey and the use of such information shall be approved by the Inspector General, who shall
include such approval in the OIG’s Semiannual Report to Congress.

The Agency reported that there were no SBDC surveys requiring OIG approval during this reporting
period. Although the statutory provision was enacted in December 2004, the Agency has not yet issued
the required regulations regarding disclosures of client information. Agency officials advised that they
were continuing to work on the regulations.




                                                    14
                               Significant OIG Activities

                                     Agency Management
SBA Receives Unqualified Opinion on FY 2006 Financial Statements

The Chief Financial Officers Act of 1990 requires each Federal agency to have its financial statements
audited annually. The audit of SBA’s FY 2006 financial statements, conducted by KPMG under a
contract with the OIG, concluded that SBA’s consolidated financial statements presented fairly, in all
material respects, the financial position of SBA as of and for the fiscal year which ended September 30,
2006. The financial statements also presented fairly, in all material respects, SBA’s net costs, changes in
                                               net position, budgetary resources, and reconciliation of net
…KPMG reported a material weakness             costs to budgetary obligation for the year. However,
related to SBA’s controls over financial       KPMG reported a material weakness related to SBA’s
reporting.                                     controls over financial reporting. While SBA continued to
                                               implement various reconciliation and data quality
improvement procedures, the Agency did not timely identify a $10 billion overstatement in the
disclosures concerning guaranteed loans. The overstatements were identified by SBA and occurred
because SBA’s subsidiary ledger was not in agreement with its general ledger. SBA personnel also did
not timely analyze the reason for the variances in these general ledger memorandum accounts. As such,
the system reconciliation procedures used from FY 2003 through the third quarter of FY 2006 were
ineffective with respect to these accounts. The overstatements did not impact other amounts included in
the consolidated financial statements.

The audit also noted two reportable conditions related to Information Technology (IT) security controls
and budgetary controls surrounding travel vouchers. Further, the OIG reported that SBA did not fully
comply with the Federal Information Security Management Act (FISMA) or Office of Management and
Budget (OMB) Circular A-130, Management of Federal Information Resources, because the Agency
needed to further improve its entity-wide security program. The Agency concurred with the findings and
agreed to implement the recommendations.

Continued Concerns with SBA’s Information Security Program

Following numerous incidents involving the compromise or loss of sensitive personal information, OMB
issued Memorandum 06-16 Protection of Sensitive Agency
                                                                    …SBA was vulnerable to unauthorized
Information, which required Federal agencies to take
                                                                        disclosure of personally identifiable
actions to protect sensitive information entrusted to them.
In reviewing SBA’s implementation of OMB                              information, particularly information
                                                                   stored on mobile computers and devices.
requirements, the OIG determined that, because of the
relatively short implementation time frame and its failure to purchase the necessary capabilities, including
encryption software, SBA did not fully implement the required data protection safeguards by the
established deadline. As a result, the OIG determined that SBA was vulnerable to unauthorized
disclosure of personally identifiable information, particularly information stored on mobile computers and
devices. The Office of the Chief Information Officer (OCIO) concurred with the findings and
recommendations.

In addition, FISMA requires the OIG to annually assess SBA’s progress in correcting weaknesses
identified in the previous year’s review of its information security program. The OIG tested 11 of SBA’s
19 major IT systems and found that SBA had fully certified and accredited 9 of these systems and had


                                                     15
                              Significant OIG Activities

                                                      interim certifications and accreditations for the
…SBA had not classified the sensitivity of            2 remaining systems. The OIG also attempted, to
information in 80 of the 82 non-major systems.        review SBA’s non-major systems for compliance
Thus…the OIG could not assess the adequacy of         with the certification and accreditation provisions
the security protection for these systems.            of FISMA, but SBA had not classified the
                                                      sensitivity of information in 80 of the 82 non-
major systems. Thus, it could not be determined which of the systems should be certified and accredited
and the OIG could not assess the adequacy of the security protection for these systems.

The OIG also contracted with KPMG to assess the security controls for key SBA network devices and
related device operating software in support of SBA’s FY 2006 financial statement audit. KPMG
performed a limited vulnerability assessment which identified numerous external and internal
vulnerabilities in SBA’s network.

OIG Works to Reduce the Number of Overdue Management Decisions and Final Actions

The Inspector General Act requires Federal agencies to make decisions on all audit findings and
recommendations within a maximum of six months of report issuance. As of September 30, 2006,
41 percent of all pending SBA management
decisions were overdue. To reduce the number of         …the OIG received management decisions for at
overdue management decisions, the OIG revised             least one recommendation in each report issued
its final audit and recommendation reporting                   during this reporting period. However…40
process to require that the Agency provide                 management decisions from previous reporting
management decisions on recommendations made                                   periods were still overdue…
in OIG reports at the time that it transmits its
comments on the draft reports. As a result, the OIG received management decisions for at least one
recommendation in each report issued during this reporting period. However, as of March 31, 2007,
40 management decisions from previous reporting periods were still overdue, and the OIG continues to
work with the responsible SBA managers to obtain these decisions. Further, as of March 31, 2007, the
OIG had closed 82 recommendations – 43 percent more than it did as of September 30, 2006 – reducing
by 30 percent the volume of overdue final actions reported on September 30, 2006. As of the end of this
reporting period, 55 percent of all pending final actions (125 actions) were overdue. The OCIO and the
Office of Management and Administration were responsible for over half of the overdue final actions.

SBA Identified and Addressed Improper Acceptance of Cash

Section 4(g)(2) of the Small Business Act, as amended, provides that any gift, devise, or bequest of cash
accepted by the Administrator under Section 4(g) shall be held in a separate account and shall be subject
to semiannual audits by the Inspector General, who shall report his findings to Congress. According to
the information provided by SBA’s Office of Strategic Alliances, during this semi-annual reporting period
SBA accepted a cash gift in the amount of $1,000 from Business Loan Express, which is a conflict of
interest. The Agency reports that it took appropriate action to address this issue and is in the process of
returning the funds to the donor. The OIG will follow-up and ensure that this is done. SBA reported that
it did not receive any additional cash gifts during this reporting period.




                                                    16
                               Significant OIG Activities

                            Other Significant OIG Activities
Character Screening Diminishes Potential Program Fraud

Participants in SBA programs that involve business loans, disaster assistance loans, Section 8(a)
certifications, surety bond guarantees, small business investment companies, and certified development
companies must meet SBA character standards. To ensure that this occurs, the OIG’s Office of Security
Operations utilizes name checks and, where appropriate, fingerprint checks to determine criminal
background information. During this reporting period, the OIG processed 1,569 external name check
requests for these programs.

The OIG also refers applicants who appear ineligible because of character issues to program officials for
                                                         adjudication based on data from its on-line
Over $288 million in loans have been declined            connection with the FBI. As a result of OIG
during the last 10 years due to character eligibility    referrals during this reporting period, SBA
issues, thus making credit available to other            business loan program managers declined
applicants who had no such issues.                       41 applications totaling nearly $12.1 million,
                                                         and disaster loan program officials declined
132 applications totaling over $9.5 million. Over $288 million in loans have been declined during the last
10 years due to character eligibility issues, thus making credit available to other applicants who had no
such issues.

Moreover, based on OIG efforts during this period, the Section 8(a) program declined 3 applications for
admission, the Surety Bond Guarantee program declined 1 application for admission, and the Small
Disadvantaged Business program declined 2 applications for admission. The OIG also initiated
122 background investigations and issued 25 security clearances for Agency employees and contractor
personnel required to have clearances, adjudicated 62 background investigative reports, and coordinated
with the Office of Disaster Assistance to adjudicate 409 derogatory background investigation reports.
Finally, the OIG processed 2,384 internal name check requests for Agency activities such as success
stories, Small Business Person of the Year nominees, and disaster assistance new hires.

OIG Recommends Debarments

The OIG believes that it is in the public interest to debar parties who have a history of fraud or otherwise
lack business integrity from conducting business with the Federal Government. Accordingly, the OIG
has adopted a proactive program to identify current SBA program participants for whom debarment
would serve the public interest and make debarment recommendations to the SBA. The OIG
recommended that SBA debar an individual for devising a scheme that permitted numerous borrowers to
fraudulently obtain SBA-guaranteed loans totaling $9.5 million. The OIG investigation determined that
the individual assisted borrowers in providing inflated checking account information and false gift letters
to support their loan applications. The individual also devised a way to transfer loan proceeds from the
escrow company into cashier’s checks in the name of various borrowers. These checks were then
submitted to the lender as evidence of the borrower’s required capital injection. The Agency reviewed
the OIG recommendation and debarred the individual for three years.




                                                    17
                              Significant OIG Activities

OIG Reviews Proposed Agency Regulations and Initiatives and Recommends Statutory
Amendments to Deter Fraud

During this reporting period, the OIG identified significant inefficiencies and concerns as to a number of
SBA initiatives, including: proposed revisions to size regulations; proposed revisions to lender oversight
and enforcement regulations; proposed expansions of existing lending programs; a proposal relating to
SBA oversight of procuring agency responsibilities to ensure that 8(a) contractors are complying with
regulations governing contract performance; a proposed reorganization of the Office of Lender Oversight;
a proposed streamlining of closing procedures for the Section 504 program; proposed procedures
regarding the disclosure of personal information; and various proposals relating to IT security. In
addition, the OIG recommended several legislative amendments to Congress to increase the penalties for
fraud under SBA programs, promote the debarment of companies that fraudulently obtain small business
contracts, and facilitate tracking of loan agents in order to reduce fraud in the SBA financial assistance
programs.

OIG Fraud Awareness Briefings

During this reporting period, the OIG conducted 4 fraud awareness briefings for approximately
95 representatives of lending institutions and 1 Katrina fraud briefing for 60 bank security officers and
members of law enforcement agencies.




                                                   18
                                                    Statistical Highlights

                                         6-Month Productivity Statistics
                                     October 1, 2006, through March 31, 2007

Summary of Office-Wide Dollar Accomplishments                                                                                                        Totals

A.   Potential Investigative Recoveries and Fines ....................................................................... $13,667,589
B.   Loans/Contracts Not Approved or Canceled as Result of Investigations............................... $6,412,389
C.   Loans Not Made as a Result of Name Checks ..................................................................... $21,600,570
D.   Disallowed Costs Agreed to by Management ...................................................................... $27,211,279
E.   Recommendations that Funds Be Put to Better
      Use Agreed to by Management.......................................................................................................... $0

      Total..................................................................................................................................... $68,891,827


Efficiency and Effectiveness Activities Related to Audits and Other Reports

A.  Reports Issued ...................................................................................................................................... 17
B.  Recommendations Issued ..................................................................................................................... 91
C.  Dollar Value of Costs Questioned........................................................................................ $27,972,795
D.  Dollar Value of Recommendations that Funds
     Be Put to Better Use ........................................................................................................................... $0
E. Collections as a Result of Questioned Costs ............................................................................ $1,015,757

Audit and Report Follow-up Activities

A. Recommendations Closed .................................................................................................................... 82
B. Disallowed Costs Agreed to by Management ...................................................................... $27,211,279
C. Dollar Value of Recommendations that Funds Be Put to Better Use
    Agreed to by Management ................................................................................................................. $0
D. Unresolved Recommendations........................................................................................................... 287

Legislation/Regulations/Standard Operating Procedures (SOPs)/Other Reviews

A. Legislation Reviewed ............................................................................................................................. 4
B. Regulations Reviewed .......................................................................................................................... 13
C. Standard Operating Procedures and Other Issuances* Reviewed ........................................................ 42

     Total..................................................................................................................................................... 59

 * This category includes policy notices, procedural notices, Administrator’s action memoranda, and other Agency
   initiatives, which frequently involve the implementation of new programs and policies.




                                                                              19
                                                    Statistical Highlights

                                         6-Month Productivity Statistics
                                     October 1, 2006, through March 31, 2007

Indictments, Convictions, and Case Activity

A.   Indictments from OIG Cases .............................................................................................................. 27*
B.   Convictions from OIG Cases.............................................................................................................. 20*
C.   Cases Opened ....................................................................................................................................... 56
D.   Cases Closed......................................................................................................................................... 31

Investigations Recoveries and Management Avoidances

A Potential Recoveries and Fines as a Result of
    OIG Investigations ............................................................................................................ $13,667,589
B. Loans/Contracts Not Approved or Canceled as Result of Investigations............................... $6,412,389
C. Loans Not Approved as a Result of the Name
    Check Program ................................................................................................................... $21,600,570

     Total..................................................................................................................................... $41,680,548

SBA Personnel Actions Taken as a Result of Investigations

A    Dismissals............................................................................................................................................... 0
B.   Resignations/Retirements ....................................................................................................................... 0
C.   Suspensions ............................................................................................................................................ 0
D.   Reprimands............................................................................................................................................. 0
E.   Other....................................................................................................................................................... 0

Program Actions Taken as a Result of Investigations

A.   Debarments Recommended to the Agency ............................................................................................ 6
B.   Debarments Pending at the Agency ....................................................................................................... 6
C.   Proposed Debarments Issued by the Agency ......................................................................................... 4
D.   Final Debarments Issued by the Agency ................................................................................................ 6
E.   Proposed Debarments Declined by the Agency ..................................................................................... 1

OIG Hotline Operation Activities

A.   Total Fraud Line Calls/Letters............................................................................................................ 166
B.   Total Calls/Letters Referred to Investigations Division ....................................................................... 30
C.   Total Calls/Letters Referred to SBA or Other Federal Investigative Agencies.................................... 10
D.   Total Calls/Letters Referred to Other Entities...................................................................................... 63
E.   Total Calls/Letters Needing No Action ................................................................................................ 63

*    Includes one indictment/conviction that occurred in a previous period but was not reported.



                                                                              20
                                      Appendices

                                          Appendix I
                                      OIG Reports Issued
                            October 1, 2006 through March 31, 2007

                                             Report          Issue      Questioned     Funds for
                  Title
                                             Number          Date         Costs        Better Use
                                          Disaster Loans
                                                                                  $0          $0
   Program Subtotal                                                               $0          $0
                                Small Business Access to Capital
Audit of an SBA-Guaranteed Loan                7-02        10/23/2006     $256,933            $0
SBA-Guaranteed Loan to Palmarejo Service
                                               7-05        12/20/2006      $31,463            $0
Station
Audit of an SBA-Guaranteed Loan to Just a
                                               7-06        12/28/2006      $28,660            $0
Cut Lawn Care, Inc.
Audit of an SBA-Guaranteed Loan to One
                                               7-07        12/29/2006      $34,608            $0
One Nine Consulting Corp. DBA ADOBEST
The SBA Express and Community Express
                                               7-08        12/29/2006   $26,401,375           $0
Loan Purchase and Liquidation Process
Audit of an SBA-Guaranteed Loan, San
                                               7-09         1/9/2007      $141,689            $0
Francisco, California
Audit of an SBA-Guaranteed Loan, Grand
                                               7-10        1/16/2007      $183,297            $0
Rapids, Michigan
Efforts to Assist Small Businesses Compete
                                               7-12        1/29/2007              $0          $0
in International Trade
Audit of an SBA-Guaranteed Loan, Malta,
                                               7-15        2/12/2007       $82,411            $0
Montana
Audit of an SBA-Guaranteed Loan to Irom
                                               7-17        3/12/2007       $77,683            $0
CNC Machining, Inc. and Irom Imaging, Inc.
Audit of the Office of Lender Oversight
                                               7-18        3/14/2007      $734,676            $0
Corrective Action Process
    Program Subtotal                            11                      $27,972,795           $0
               Small Business Development, Contracting, Education, and Training
Audit of Two 8(a) Sole-Source Contracts
Awarded to Contractors in SBA’s Mentor         7-19        03/30/2007             $0          $0
Protégé Program
   Program Subtotal                              1                                $0          $0




                                               21
                                       Appendices

                                          Appendix I
                                      OIG Reports Issued
                            October 1, 2006 through March 31, 2007

                                               Report      Issue     Questioned    Funds for
                   Title
                                               Number      Date        Costs       Better Use
                                      Agency Management
Audit of SBA's FY 2006 Financial Statements     7-03    11/15/2006           $0            $0
GFRS for Fiscal Year 2006                       7-04    12/20/2006           $0            $0
Audit of SBA's FY 2006 Financial -
                                                7-11    1/17/2007            $0            $0
Management Letter
Review of SBA's Protection of Sensitive
                                                7-13     2/9/2007            $0            $0
Information
Evaluation of the SBA's Information Security
                                                7-14    02/22/2007           $0            $0
Program
KPMG Technical Vulnerability Assessment         7-16      3/6/2007            $0           $0
   Program Subtotal                              6                            $0           $0
   TOTALS (all programs)                         17                  $27,972,795           $0




                                               22
                                              Appendices

                                              Appendix II
                                    OIG Reports with Questioned Costs

                                                             Recommend        Questioned          Unsupported
                                              Reports
                                                              -actions*        Costs**              Costs**
  A.    No management decision made
                                                  3               3                $619,718          $1,073,715
        by September 30, 2006***
        Issued during this reporting             10               15             $1,605,968         $26,366,827
  B.
        period
        Universe from which
        management decisions could be
                                                 13               18             $2,225,686         $27,440,542
        made in this reporting period –
        Subtotals
        Management decision(s) made
  C.                                              9               14               $871,292         $26,366,827
        during this reporting period
        (i) Disallowed costs                      7               12               $858,684                  $0
        (ii) Costs not disallowed                 2                2                $12,608             $14,232
        No management decision
  D.                                              4               4              $1,354,394          $1,073,715
        made by March 31, 2007
  * Reports may have more than one recommendation.
 ** Questioned costs are those which are found to be improper, whereas unsupported costs may be proper but lack
    documentation.
*** Information is different from what was previously reported due to database corrections.


                                         Appendix III
                 OIG Reports with Recommendations that Funds Be Put to Better Use

                                                                                               Recommended
                                                                       Recommend-
                                                         Reports                              Funds For Better
                                                                         ations*
                                                                                                    Use
        No management decision made by
  A.                                                          1              1                         $293,823
        September 30, 2006***
  B.    Issued during this reporting period                   0              0                               $0
        Universe from which management
        decisions could be made in this reporting             1              1                         $293,823
        period – Subtotals
        Management decision(s) made during this
  C.                                                          0              0                               $0
        reporting period
        (i) Recommendations agreed to by SBA
                                                              0              0                               $0
             management
        (ii) Recommendations not agreed to by
                                                              0              0                               $0
             SBA management
        No management decision made by
  D.                                                          1              1                         $293,823
        March 31, 2007
  * Reports may have more than one recommendation.
*** Information is different from what was previously reported due to database corrections.



                                                        23
                                               Appendices

                                             Appendix IV
                           OIG Reports with Non-Monetary Recommendations

                                                                                Reports      Recommendations
 A.     No management decision made by September 30, 2006***                       24                 41
  B.    Issued during this reporting period                                         9                 75
        Universe from which management decisions could be made in
                                                                                   33                 116
        this reporting period – Subtotals
        Management decision(s) made (for at least one
  C.                                                                               17                 60
        recommendation in the report) during this reporting period
        No management decision made (for at least one
 D.     recommendation in the report) by                                           17                 56
        March 31, 2007 *
  * Adding the number of reports for C. & D. will not result in the subtotal of A. & B. because any single report
    may have recommendations that fall under both C. & D.
*** Information is different from what was previously reported due to database corrections.




                                                        24
                                         Appendices

                                        Appendix V
                         OIG Reports From Prior Semiannual Periods
                   with Overdue Management Decisions as of March 31, 2007

                                         Report     Date
                Title                                                        Status
                                         Number    Issued
Impact of Loan Splitting on Borrowers                         Agency response does not fully
                                          2-31     9/30/02
and SBA                                                       address the recommendation.
Audit of San Francisco District Office                        Agency has not responded to one
Administrative Activities Related to                          recommendation made in the report.
                                          4-27     6/29/04
the Silicon Valley Small Business
Development Center
Audit of an SBA-Guaranteed Loan                               Agency response does not fully
                                          4-40     9/13/04
                                                              address the recommendation.
Audit of Early Defaulted Loan                                 Agency has not responded to one
                                          4-43     9/17/04
                                                              recommendation made in the report.
Review of a Cooperative Agreement                             Agency has not responded to one
                                          5-11     2/11/05
to HP Small Business Foundation                               recommendation made in the report.
Defaulted 9/11 Disaster Loan to CLB                           Agency response does not fully
                                         CP 5-02 2/14/05
Publishers Inc.                                               address the recommendation.
Audit of the Contract Bundling                                Agency has not responded to four
                                          5-20     5/20/05
Process                                                       recommendations made in the report.
Audit of the SBIC (Small Business                             Four recommendations are in
Investment Company) Liquidation           5-22     7/28/05    management resolution.
Process
Review of the 1502 Reporting Process                          Two recommendations made in the
                                          6-07     12/9/05
                                                              report are in management resolution.
SBA’s Administration of the                                   One recommendation made in the
Supplemental Terrorist Activity Relief    6-09     12/23/05   report is in management resolution.
(STAR) Loan Program
SBA’s FY 2005 Financial Statements                            Agency has not responded to one
                                          6-10     1/18/05
Management Letter                                             recommendation in the report.
Human Capital Planning in SBA’s                               Agency has not responded to one
                                          6-13     3/02/06
Office of Financial Assistance                                recommendation made in the report.
Improvement is Needed in Interface                            Agency has not responded to three
Error Correction Between SBA’s                                recommendations made in the report.
DCMS (Disaster Credit Management
System) and FEMA’s (Federal               6-20     3/31/06
Emergency Management Agency)
NEMIS (National Emergency
Management Information System)
Audit of an SBA-Guaranteed Loan                               Agency has not responded to one
                                          6-22    5/17/2006
                                                              recommendation in the report.
Review of DCMS - Performance Test                             Agency has not responded to one
                                          6-24     6/8/2006
Plan                                                          recommendation in the report.
Survey of the Quality Assurance                               Agency has not responded to five
                                          6-26    7/12/2006
Review Process                                                recommendations in the report.


                                                  25
                                      Appendices

                                       Appendix V
                        OIG Reports From Prior Semiannual Periods
                  with Overdue Management Decisions as of March 31, 2007

                                      Report     Date
               Title                                                      Status
                                      Number    Issued
Preliminary Assessment of Controls                         Agency has not responded to three
Over the Automated Coordination of                         recommendations in the report.
Disaster Assistance Benefits
                                       6-28    9/19/2006
Distributed by Mississippi
Development Authority’s Grant
Assistance Program
Office of the Chief Information                            Agency has not responded to one
Officer Contract Awards for Agency     6-30    9/25/2006   recommendation in the report.
Mission-Critical Services
Flexible Staffing of SBA Personnel                         Agency has not responded to two
During Times of Emergencies or                             recommendations in the report.
                                       6-31    9/25/2006
Catastrophes to Aid Disaster Loan
Processing
Deficiencies in OFA’s (Office of                           Agency has not responded to two
Financial Assistance) Purchase         6-35    9/25/2006   recommendations in the report.
Review Process for Backlogged Loans




                                               26
                                             Appendices

                                          Appendix VI
                       OIG Reports Without Final Action as of March 31, 2007

                                                                                             Final
                                                                                 Date of
Report                                                                Date                   Action
                                     Title                                     Management
Number                                                               Issued                  Target
                                                                                Decision
                                                                                              Date
43H0060      8(a) Continuing Eligibility Reviews                     9/30/94    12/30/94    10/30/02
  0-14       7(a) Service Fee Collections                            3/30/00     8/22/00    12/31/04
             SBA’s Administration of Minority Business
  0-30       Enterprise Legal Defense and Education Fund             9/30/00     3/26/01      **
             Cosponsorship
             Results Act Performance Measurement for the
  1-11       Minority Small Business & Capital Ownership             3/27/01     9/28/01    7/31/03
             Development Program
 A1-06       SBA’s Computer Security Program                         9/28/01     1/9/02       **
             SBA’s FY 2001 Financial Statements –
  2-17                                                               4/12/02    12/12/02    9/30/03
             Management Letter
  2-18       SBA’s Information Systems Controls – FY 2001             5/6/02       **         **
             SBA’s Oversight of the Fiscal Transfer Agent for
  3-08                                                               1/30/03       **         **
             the 7(a) Loan Program
             SBA’s Information System Controls for
  3-20                                                               3/31/03       **         **
             FY 2002
             Microloan Program: Moving Toward Performance
  3-26                                                               5/13/03       **         **
             Management
  3-33       SBIC Oversight                                          7/1/03         **      4/30/05
  3-35       National Women’s Business Council                       7/28/03        **         **
  4-09       Review of SBA Purchase Cards                            1/26/04     8/24/04    3/31/05
  4-13       Audit of an Early Defaulted Loan                         3/2/04      4/6/04    1/31/05
             SBA’s Administration of the Procurement
  4-16       Activities of Asset Sale Due Diligence Contracts        3/17/04       **         **
             and Task Orders
  4-19       SBA’s Information Systems Controls – FY 2003            4/29/05       **         **
             Business Development Provided by SBA’s 8(a)
  4-22                                                                6/2/04     7/14/04      **
             Business Development Program
  4-28       Audit of an SBA-Guaranteed Loan                          7/9/04     10/6/04    3/31/05
  4-32       Audit of an SBA-Guaranteed Loan                         7/29/04     10/6/04    3/31/05
             SBA’s Process for Complying with the Federal
  4-34       Managers’ Financial Integrity Act (FMFIA)               7/29/04     9/9/04     4/30/05
             Reporting Requirements
** Management decision or target dates vary for different recommendations.



                                                     27
                                            Appendices

                                          Appendix VI
                       OIG Reports Without Final Action as of March 31, 2007

                                                                                           Final
                                                                                Date of
Report                                                               Date                  Action
                                    Title                                     Management
Number                                                              Issued                 Target
                                                                               Decision
                                                                                            Date
             Single Audit of Federal Financial Assistance
  4-35       Program Service Corps of Retired Executives            8/03/04     1/12/05    6/30/05
             (SCORE)
  4-36       Audit of an Early Defaulted Loan                       8/10/04     10/6/04    3/31/05
             Memorandum Advisory Report – the Transfer
  4-39       of Operations to the National Guaranty                 8/31/04       **       9/30/05
             Purchase Center
             Audit of Selected SBA General Support
  4-41                                                              9/10/04       **         **
             Systems
  4-42       Audit of SBA's Email System                            9/10/04       **       12/31/06
             SBA-Sponsored and Cosponsored Events
  4-44                                                              9/24/04       **         **
             Conducted by District Offices
  5-03       Review of an Indirect Cost Rate                       10/25/04     1/12/05    6/30/05
             Review of the Small Disadvantaged Business
  5-04                                                              11/4/04     4/1/05       **
             Certification Program
             Memorandum Advisory Report – Pre-Demand
  5-09       and Demand Letters for Delinquent 9/11                 1/11/05     3/8/05     7/10/05
             Disaster Loans
             Audit of SBA’s Information Systems Controls –
  5-12                                                              2/24/05       **         **
             FY 2004
             SBA’s Continuity of Operations Planning
  5-17                                                              3/30/05     5/3/05       **
             Program
  5-20       Audit of the Contract Bundling Process                 5/20/05     5/23/06    12/30/06
  5-22       Audit of SBIC Liquidation Process                      7/28/05       **         **
             SBA’s Administration of its Special
  5-23                                                              9/24/04       **         **
             Appropriation Grants
             Criteria For Overcoming The Presumption of
  5-24                                                              9/28/05       **         **
             Social Disadvantage is Needed
  5-26       Audit of SBA-Guaranteed Loan                           9/25/05      2/6/06    5/31/06
  5-28       Review of SBA Procedures For Cash Gifts                9/30/05     2/23/06    6/30/06
             Independent Evaluation of SBA’s Information
  6-01                                                              10/7/05       **         **
             Security Program
  6-04       Audit of SBA's FY 2005 Financial Statements           11/14/05     5/10/06      **
** Management decision or target dates vary for different recommendations.




                                                     28
                                            Appendices

                                          Appendix VI
                       OIG Reports Without Final Action as of March 31, 2007

                                                                                           Final
                                                                                Date of
Report                                                               Date                  Action
                                    Title                                     Management
Number                                                              Issued                 Target
                                                                               Decision
                                                                                            Date
  6-07       Review of the 1502 Reporting Process                   12/9/05       **         **
             SBA's Information Systems Controls For
  6-08                                                             12/22/05     8/14/06    9/29/06
             FY 2005
             Audit of SBA's Administration of the
  6-09       Supplemental Terrorist Activity Relief (STAR)         12/22/05       **         **
             Loan Program
  6-14       Audit of an SBA-Guaranteed Loan                         3/2/06     6/21/06     7/3/06
             Review of A Company's 8(A) Business                                8/16/06    9/30/06
  6-19                                                              3/30/06
             Development Program Eligibility
             HUBZone Program Examination and Re-                                6/14/06    11/30/06
  6-23                                                              5/23/06
             certification Process
             Concerns Related to SBA's Acquisition
                                                                    9/29/06    10/05/06    1/30/07
  6-33       Personnel Education and Training
  7-03       Audit of SBA's FY 2006 Financial Statements           11/15/06    12/15/06    3/30/07
             Audit of an SBA-Guaranteed Loan to Just a Cut
                                                                   12/28/07     1/30/07    3/15/07
  7-06       Lawn Care, Inc
             Review of the Small Business Administration's
                                                                    2/09/07       **         **
  7-13       Protection of Sensitive Agency Information
  7-16       Vulnerability Technology Security Assessment           3/6/07      3/7/07       **
** Management decision or target dates vary for different recommendations.




                                                     29
                                            Appendices

                                            Appendix VII
                              Summary of Significant Recommendations
                              From Prior Semiannual Reporting Periods
                              Without Final Action as of March 31, 2007*

                                                                                                 Final
 Report          Date                                                           Management       Action
                                          Recommendation
 Number         Issued                                                          Decision Date    Target
                                                                                                  Date
43H006021       9/30/94     Establish procedures for determining                  10/30/94      10/30/02
                            whether Section 8(a) participants should no
                            longer be considered economically
                            disadvantaged based on their ownership
                            interest in their 8(a) firm, the equity and
                            market value of their primary residence, and
                            the net worth of their spouses.
   1-11         3/27/01     Ensure that 8(a) performance plans include             9/28/01      7/31/03
                            indicators for determining how effectively
                            and efficiently the Section 8(a) program is
                            operating.
   2-12         3/20/02     Develop a formal policy regarding effective            8/27/02      3/31/07
                            supervisory and enforcement actions for
                            Small Business Lending Companies.
   2-18         5/6/02      Develop an Agency-wide information                     6/28/02       3/1/05
                            security plan to establish and implement the
                            policies, procedures and practices for the
                            following: (1) full integration of the
                            information security approach and
                            implementation process; (2) coordination
                            among program offices to support their
                            security needs; (3) guidance to the program
                            office to implement information system
                            security controls; and (4) methods to
                            monitor the effectiveness of each part of
                            information technology security.
   3-08         1/30/03     Initiate a new procurement action for fiscal          12/10/03      3/31/06
                            transfer agent activities and terminate the
                            existing contract with the fiscal transfer
                            agent when a new contract can be enacted.
   3-08         1/30/03     Review fiscal transfer agent activities and           10/15/03      3/31/06
                            identify contract costs for fees and services.
                            Report these contract costs in proposed
                            Master Reserve Fund financial statements
                            so future fiscal transfer agent contracts will
                            have historical cost data for comparison
                            purposes.
* These are a subset of the universe of recommendations without final action.



                                                      30
                                            Appendices

                                            Appendix VII
                              Summary of Significant Recommendations
                              From Prior Semiannual Reporting Periods
                              Without Final Action as of March 31, 2007*

                                                                                                 Final
 Report          Date                                                           Management      Action
                                           Recommendation
 Number         Issued                                                          Decision Date   Target
                                                                                                 Date
   3-33         7/1/03     Revise the Standard Operating Procedure (SOP)           10/6/03      6/30/06
                           on SBICs to ensure it includes requirements to
                           perform quarterly risk assessments for capitally
                           impaired SBICs, include an analysis of potential
                           for repayment of outstanding leverage, and
                           determine what criteria should be used to
                           recommend an SBIC be transferred to
                           liquidation.
   3-33         7/1/03     Revise SOP on SBICs to ensure that the                 10/20/04      6/30/06
                           implementation of restrictive operations
                           addresses: (1) appropriate levels of impairment
                           requiring restrictive operations; (2) time periods
                           SBICs should remain in restrictive operations;
                           (3) appropriateness of remedies or combination
                           of remedies that should be used and under what
                           circumstances; and (4) whether forbearance
                           regulations preclude the application of
                           restrictive operations.
   4-16        3/17/04     Develop and implement procedures to monitor             5/12/04      5/02/05
                           contractor compliance with the 50 percent rule
                           when applicable.
   4-16        3/17/04     Ensure the amount of subcontracting is                  5/12/04      5/02/05
                           reviewed and documented in the contract file
                           for awards of 8(a) and small business set-aside
                           contracts and task orders to small businesses.
   4-16        3/17/04     Revise SOP on Procurement and Grants                    5/12/04      5/02/05
                           Management as soon as possible, incorporate
                           policies to address the outstanding items
                           described above within six months of the
                           issuance of this report.
   4-28        7/9/04      Seek recovery of $142,549 from the 7(a) lender.         10/6/04      3/31/05
   4-36        8/10/04     Seek recovery of the SBA guaranty repair of             10/6/04      3/31/05
                           $740,000 from the 7(a) lender.
* These are a subset of the universe of recommendations without final action.




                                                      31
                                            Appendices

                                            Appendix VII
                              Summary of Significant Recommendations
                              From Prior Semiannual Reporting Periods
                              Without Final Action as of March 31, 2007*

                                                                                                   Final
 Report         Date                                                            Management
                                         Recommendation                                           Action
 Number        Issued                                                           Decision Date
                                                                                                Target Date
   4-39        8/31/04     Determine the appropriate number of loan                4/13/05        9/30/05
                           officers, supervisors and attorneys to be
                           assigned to the Herndon center by
                           (1) establishing the elements of quality for
                           the purchase and liquidation action review
                           process; (2) determining how much time it
                           takes to complete a quality review at each
                           level (loan officer, supervisor, attorney); and
                           (3) computing the staffing levels needed to
                           complete the estimated annual purchase and
                           liquidation action workloads at an acceptable
                           level of quality.
   5-04        11/4/04     Develop and implement procedures to ensure              4/1/05         9/30/05
                           that Small Disadvantaged Business reviewers
                           properly apply all four criteria for
                           determining economic disadvantage, per
                           13 CFR 124.104(c), using 8(a) Program
                           thresholds for maximum income and total
                           assets, and industry financial performance
                           comparisons.
   5-09        1/11/05     Revise SOP 50 51 2 to direct servicing                  3/8/05         7/10/05
                           centers to send timely pre-demand and
                           demand letters to delinquent borrowers.
                           Such letters should be maintained in the loan
                           file.
* These are a subset of the universe of recommendations without final action.




                                                      32
                                            Appendices

                                            Appendix VII
                              Summary of Significant Recommendations
                              From Prior Semiannual Reporting Periods
                              Without Final Action as of March 31, 2007*

                                                                                                   Final
 Report          Date                                                           Management
                                          Recommendation                                          Action
 Number         Issued                                                          Decision Date
                                                                                                Target Date
   5-12         2/24/05      For all SBA internal and contractor                   4/13/05        3/31/06
                             supported general support systems and
                             major applications, e.g., Egan Mainframe,
                             SBA and Corio UNIX, Network and
                             Windows 2000; Loan Accounting System
                             (LAS), Sybase, Mainframe, Joint
                             Accounting and Administration
                             Management System (JAAMS) Oracle, and
                             related application functions: (1) develop
                             and document policies and procedures
                             clearly outlining what activities should be
                             logged, who should be responsible for
                             reviewing logs, what the logs should be
                             reviewed for, how often logs should be
                             reviewed, and how long logs should be
                             retained; (2) assign responsibility within
                             the Office of the Chief Information Officer
                             for the review of application and general
                             support system security logs; and (3) retain
                             audit logs for a sufficient period of time (at
                             least 90 days).
   5-17         3/30/05      Require that personnel named in the SBA               5/3/05        12/31/05
                             Continuity of Operations Plan (COOP) and
                             Business Resumption Plan (BRP)
                             participate in plan testing so that they
                             understand their duties if plan activation is
                             needed.
   5-22         7/28/05      Revise SOP 10 07 to require periodic                  7/19/06       10/31/06
                             assessments of each SBIC receivership’s
                             progress and operations by comparing the
                             monthly invoices and periodic status
                             meeting results to pre-set performance
                             standards.
   5-22         7/28/05      Ensure that each case file includes                  11/14/05       10/31/06
                             documented evidence that Office of SBIC
                             Liquidation (OL) staff considered all
                             liquidation methods.
* These are a subset of the universe of recommendations without final action.




                                                      33
                                            Appendices

                                            Appendix VII
                              Summary of Significant Recommendations
                              From Prior Semiannual Reporting Periods
                              Without Final Action as of March 31, 2007*

                                                                                                   Final
 Report          Date                                                           Management
                                          Recommendation                                          Action
 Number         Issued                                                          Decision Date
                                                                                                Target Date
   5-22         7/28/05      Revise SOP 10 07 to require OL staff to               7/19/06       10/31/06
                             obtain, for the sale of portfolio assets by an
                             SBIC, verification that the sale was made
                             at commercially reasonable terms.
   6-23        5/23/2006     Set a maximum acceptable timeframe for                6/14/06        3/30/07
                             decertifying firms and removing them from
                             SBA's list once a decision has been made
                             that such firms no longer meet the criteria
                             for HUBZone participation.
   6-33        9/29/2006     Develop a plan for meeting the                       10/05/06        1/30/07
                             requirements of Policy Letter 05-01 that
                             assigns responsibility and establishes
                             timeframes for identifying the workforce,
                             assessing skill levels and training needs,
                             and provides for the tracking and reporting
                             of workforce data.
* These are a subset of the universe of recommendations without final action.




                                                      34
                                     Appendices

                                         Appendix VIII
                           Summary of Significant Recommendations
                            October 1, 2006 through March 31, 2007

Report                                  Date
                   Title                                         Recommendation
Number                                 Issued
 7-02    Audit of an SBA-             10/30/06    Seek recovery of $256,933, less any subsequent
         Guaranteed Loan                          recoveries, from the lender on the guaranty paid.
 7-03    Audit of SBA's FY 2006       11/15/06    Ensure that policies are implemented regarding
         Financial Statements                     segregation of duties for Financial Reporting
                                                  Information System (FRIS), JAAMS, DCMS,
                                                  and LAS.
 7-03    Audit of SBA's FY 2006       11/15/06    Obtain the needed storage capacity to store
         Financial Statements                     security logs for an adequate period of time and
                                                  ensure that potential security violations are
                                                  reviewed for possible inappropriate use of IT
                                                  equipment.
 7-03    Audit of SBA's FY 2006       11/15/06    Ensure that each user within the Field
         Financial Statements                     Cashiering System has only one role in the
                                                  system. In cases where this may not be feasible
                                                  given work assignments, then additional
 7-03    Audit of SBA's FY 2006       11/15/06    Ensure that system owners for DCMS, FRIS,
         Financial Statements                     JAAMS and LAS standardize software change
                                                  requests and that software change testing
                                                  documentation is developed in a more consistent
                                                  and complete manner.
 7-03    Audit of SBA's FY 2006       11/15/06    Coordinate with program offices to implement
         Financial Statements                     policies for end-user computing, specifically
                                                  enforcing user-level access controls over
                                                  existing programs and data,
 7-03    Audit of SBA's FY 2006       11/15/06    Enhance SBA’s quality assurance processes
         Financial Statements                     related to amounts recorded in SBA’s various
                                                  financial systems. Control policies should ensure
                                                  that all reconciling items are pursued and fully
                                                  investigated.
 7-03    Audit of SBA's FY 2006       11/15/06    Requests an in-depth analysis of information
         Financial Statements                     presented in the consolidated financial
                                                  statements be performed each quarter including
                                                  the footnotes for the third and fourth quarter
                                                  consolidated financial statements.
 7-03    Audit of SBA's FY 2006       11/15/06    Requests that relevant personnel reconcile loan
         Financial Statements                     guaranty data recorded in the general ledger
                                                  periodically with information reported by SBA’s
                                                  fiscal transfer agent to ensure that the amounts
                                                  recorded are accurate.
 7-03    Audit of SBA's FY 2006       11/15/06    Implement technical access controls to address
         Financial Statements                     the vulnerabilities.


                                             35
                                     Appendices

                                         Appendix VIII
                           Summary of Significant Recommendations
                            October 1, 2006 through March 31, 2007

Report                                  Date
                   Title                                         Recommendation
Number                                 Issued
 7-03    Audit of SBA's FY 2006       11/15/06    Implement a more robust vulnerability
         Financial Statements                     assessment scanning program, to include, at a
                                                  minimum, periodic scanning of production
                                                  devices in accordance with the Vulnerability
                                                  Assessment Team policy, and scanning of new
                                                  devices during the testing process and prior to
                                                  the new devices being implemented.
 7-03    Audit of SBA's FY 2006       11/15/06    Coordinate with program offices to ensure that
         Financial Statements                     system Plans of Actions and Milestones
                                                  (POA&M) are fully completed.
 7-05    Audit of an SBA-             12/20/06    Seek recovery of $31,463 from the lender on the
         Guaranteed Loan to                       guaranty paid.
         Palmarejo Service Station
 7-06    Audit of an SBA-             12/28/06    Seek recovery $28,660 from the lender on the
         Guaranteed Loan to Just a                guaranty paid.
         Cut Lawn Care, Inc.
 7-07    Audit of an SBA-             12/29/06    Seek recovery of $34,608 in collateral and
         Guaranteed Loan to One                   interest, less any subsequent recoveries, from the
         One Nine Consulting Corp.                lender on the guaranty paid.
 7-08    Audit of the SBAExpress      12/29/06    Determine if lender actions warrant a denial of
         and CommunityExpress                     liability on $14,232 in guaranties associated
         Loan Purchase and                        with the two loans that were either missing a
         Liquidations Process                     Form 1919 or where the form was incomplete;
                                                  and $9,015 on guarantee.
 7-08    Audit of the SBAExpress      12/29/06    Determine if loan proceeds on the 45 loans
         and CommunityExpress                     sampled during our audit were used in
         Loan Purchase and                        accordance with the terms of the loan
         Liquidations Process                     authorizations, and take appropriate corrective
                                                  actions.
 7-08    Audit of the SBAExpress      12/29/06    Recover $7,414 from a lender that awarded an
         and CommunityExpress                     SBA loan to an ineligible company.
         Loan Purchase and
         Liquidations Process
 7-11    Audit of SBA's FY 2006        1/17/07    Enhance Quality and Assurance process to
         Financial Statements –                   ensure proper documentation is maintained in
         Management Letter                        disaster loan files.
 7-11    Audit of SBA's FY 2006        1/17/07    Continue the Quality Assurance Review
         Financial Statements –                   activities over loan modifications to ensure
         Management Letter                        SBA’s SOPs are properly followed.




                                             36
                                     Appendices

                                         Appendix VIII
                           Summary of Significant Recommendations
                            October 1, 2006 through March 31, 2007

Report                                  Date
                   Title                                           Recommendation
Number                                 Issued
 7-11    Audit of SBA's FY 2006        1/17/07       Implement or enhance quality and assurance
         Financial Statements –                      procedures to ensure that “post-purchase”
         Management Letter                           reviews are performed timely.
 7-11    Audit of SBA's FY 2006        1/17/07       Coordinate with the Directors of the Disaster
         Financial Statements –                      offices to establish formal disposition and
         Management Letter                           monitoring procedures to ensure that incoming
                                                     checks are processed timely.
 7-11    Audit of SBA's FY 2006        1/17/07       Implement training for SBA personnel involved
         Financial Statements –                      in the Field Cashiering processing to improve
         Management Letter                           the consistency with which the various SBA
                                                     officer personnel process and deposit checks.
 7-11    Audit of SBA's FY 2006        1/17/07       Implement or enhance quality and assurance
         Financial Statements –                      procedures to ensure that defaulted loan
         Management Letter                           guaranty purchases are recorded timely and in
                                                     the proper fiscal year in accordance with SBA
                                                     requirements.
 7-13    Review of the SBA's           2/9/07        Install encryption software on all mobile
         Protection of Sensitive                     computers and devices and develop policies and
         Agency Information                          procedures on their use.
 7-13    Review of the Small           2/9/07        Implement two-factor authentication over all
         Business Administration's                   remote access connections to the Agency
         Protection of Sensitive                     network where one of the factors is provided by
         Agency Information                          a device separate from the computer gaining
                                                     access.
 7-08    Audit of the SBAExpress      12/29/06       Review the 2,729 loans for compliance with
         and CommunityExpress                        SBA rules and regulations and improper
         Loan Purchase and                           payments.
         Liquidations Process
 7-08    Audit of the SBAExpress      12/29/06       Recover $27,134 for the two purchased SBA
         and CommunityExpress                        Express loans reviewed for which the lender
         Loan Purchase and                           failed to disclose material facts.
         Liquidations Process
 7-09    Audit of an SBA-              1/9/07        Seek recovery of $141,689, less any subsequent
         Guaranteed Loan, San                        recoveries.
         Francisco, California
 7-10    Audit of an SBA-              1/16/07       Seek recovery of $183,297, less any subsequent
         Guaranteed Loan, Grand                      recoveries.
         Rapids, Michigan
 7-15    Audit of an SBA-              2/12/07       Seek recovery of $82,411, less any subsequent
         Guaranteed Loan, Malta,                     recoveries.
         Montana


                                                37
                                   Appendices

                                    Appendix VIII
                      Summary of Significant Recommendations
                       October 1, 2006 through March 31, 2007

7-17   Audit of SBA-Guaranteed     3/12/07    Seek recovery of $77,683 from GE Capital
       Loan to IROM CNC                       Small Business Finance Corp. on the guaranty
       Machining, Inc. and IROM               paid by SBA.
       Imaging, Inc.
7-18   Audit of the Office of      3/14/07    Seek recovery through repairs or denials of the
       Lender Oversight                       $734,676 in guaranties.
       Corrective Action Process
7-19   Audit of Two 8(a) Sole-     3/30/07    Determine whether SBA's inability to effectively
       Source Contracts Awarded               monitor the 8(a) and Mentor Protégé programs
       to Contractors in the                  should be reported as a material weakness in the
       Mentor/Protégé Program                 Administrator's FY 2007 internal control
                                              assurance statement.




                                         38
                                            Appendices

                                             Appendix IX
                   Events/Activities Where SBA Used its Cosponsorship Authority*
                                    Small Business Act, Section 4(h)
                               October 1, 2006 though March 31, 2007

                                 Event        Event
                                                          Location of
  Name/Subject of Event          Start         End                           Name(s) of Cosponsor(s)
                                                            Event
                                  Date         Date
 5th Lighting the               11/13/06     11/14/06     Los Angeles,    Korean Churches for Comm.
 Community Conference                                     CA              Dev. and the WH Initiative on
                                                                          Asian-Americans & Pac. Isl.

 Online training module to       12/1/06     11/31/08     World Wide      Trump University, Inc
 educate small businesses                                 Web
 Congressional Breakfast,       11/13/06     11/17/06     Providence,     Hispanic American Chamber of
 MED Week Awards                                          RI              Commerce
 Reception and Dinner,
 MED Week Presentation of
 Awards, Business Expo,
 Series of Small Business
 Workshops and
 Matchmaker Event
 New England                    11/14/06                  Westborough, New England Economic
 Entrepreneurship Summit                                  MA           Partnership, Bank of America
 and Economic Outlook
 Conference
 Publication and                 12/1/06     10/31/07     Distribution:   The Signage Foundation for
 Distribution of The Small                                SCORE           Communications Excellence
 Business Primer                                          Chapters,
                                                          SBDC’s,
                                                          SBA District
                                                          Offices,
                                                          Business
                                                          Schools and
                                                          Business
                                                          School
                                                          Libraries
 Small Business Week             4/23/07      4/24/07     Washington,     SCORE (Additional
                                                          DC              Cosponsors
 Federal Contracting             2/16/07                  San Juan, PR    Colegio de Ingenieros y
 Matchmaking Event                                                        Agrimensores de Puerto Rico
 Cyber Security Is Good          1/22/07      1/23/07     San Jose, CA    National Institute of Standards
 Business                                                 San             and Technology, Federal
                                                          Francisco,      Bureau of Investigation
                                                          CA
* The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
  been held. This information has not been verified by the OIG.


                                                     39
                                            Appendices

                                            Appendix IX
                   Events/Activities Where SBA Used its Cosponsorship Authority*
                                    Small Business Act, Section 4(h)
                               October 1, 2006 though March 31, 2007

                                  Event        Event
                                                          Location of
   Name/Subject of Event          Start         End                          Name(s) of Cosponsor(s)
                                                            Event
                                  Date         Date
 New Mexico Small                4/27/07                  Albuquerque, Santa Fe Community College
 Business Week Awards                                     NM           thru New Mexico SBDC
 Celebration 2007
 Straight Talk and the           1/20/07      2/27/07     Buffalo, NY     SCORE Buffalo Niagara
 Straight Talk Series             3/6/07      4/10/07
 BSA/SBA Software Asset           2/1/07     12/31/08     World Wide      Business Software Alliance
 Management Educational                                   Web
 Campaign
 Financial Recordkeeping           3/07        11/08      San Antonio,    The San Antonio CPA Society,
 for Small Business                                       TX              a Chapter of the Texas Society
                                                                          of CPAs
 Small Business Awards           4/07 or                  Richmond,       Small Business Awards
 Luncheon                         5/07                    VA              Foundation, Inc.
 Small Business Person of        4/11/07                  Columbia,       SC Chamber of Commerce,
 the Year Awards and                                      SC              Small Business Development
 Matchmaking Workshop                                                     Center of SC, SC Department
                                                                          of Commerce, SC Export
                                                                          Consortium, Service Corps of
                                                                          Retired Executives, SC
                                                                          Manufacturing Extension
                                                                          Partnership, SC Women’s
                                                                          Business Center, U.S.
                                                                          Department of Agriculture,
                                                                          Rural Development
 Faith-Based Small Business      4/21/07                  Virginia        Regent University
 Symposium                                                Beach, VA


 Minority Enterprise              2/2/07                  Los Angeles,    U.S. Dept of Commerce,
 Development Week                                         CA              Minority Business
 Awards Dinner                                                            Development Agency, City of
                                                                          Los Angeles, Office of
                                                                          Economic Development and the
                                                                          Minority Business Opportunity
                                                                          Center
* The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
  been held. This information has not been verified by the OIG.




                                                     40
                                            Appendices

                                            Appendix IX
                   Events/Activities Where SBA Used its Cosponsorship Authority*
                                    Small Business Act, Section 4(h)
                               October 1, 2006 though March 31, 2007

                                  Event        Event
                                                           Location of
   Name/Subject of Event          Start         End                          Name(s) of Cosponsor(s)
                                                             Event
                                   Date        Date
 Salute to Small Business         5/7/07      5/10/07      St. Louis,     2007 Small Business Week of
 Lenders & Hall-of-Fame                                    MO             Eastern Missouri, Inc.
 Kick-Off Networking
 Breakfast, SBA Finance
 Workshop, Annual SBA
 Exhibit Gala and Annual
 SBA Awards Dinner
 Gateway Community                 9/06        6/07        New Haven,     Gateway Community College,
 College Procurement                                       CT             Business Resource Center,
 Workshop Series and                                                      SCORE
 Matchmaker
 Entrepreneurial Training         1/1/07     12/30/07      Washington,    National Women's Business
                                                           DC             Center
 A series of entrepreneurial      2/8/07      2/9/07       Mountain       Invent Your Future Enterprises
 training programs offered                                 View, CA
 during IYF’s two-day
 Entrepreneurial Skills
 Conference
 Government Contracting           3/6/07      4/24/07      Augusta, ME    Maine Procurement Technical
 Seminars                        6/26/07      9/13/07                     Assistance Center
 The expansion and                 3/07       1/31/09      World Wide     JA Worldwide®
 promotion of the co-                                      Web
 branded SBA/JA website
 www.mindyourownbiz.org
 aimed at youth
 entrepreneurs; date-specific
 activities including an SBA
 Job Shadow Day
 Publication and distribution      3/07        9/08        Small          The Signage Foundation for
 of the Signage Source Book                                Businesses     Communications Excellence
 – Second Edition                                          Resource
                                                           Libraries
 2007 SBA Maryland Small         5/11/07                   Woodlawn,      Maryland Small Business Week
 Business Awards Breakfast                                 MD             Awards Program, Inc.
 and Trade Show
* The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
  been held. This information has not been verified by the OIG.




                                                      41
                                            Appendices

                                            Appendix IX
                   Events/Activities Where SBA Used its Cosponsorship Authority*
                                    Small Business Act, Section 4(h)
                               October 1, 2006 though March 31, 2007

                                  Event        Event
                                                          Location of
   Name/Subject of Event           Start        End                          Name(s) of Cosponsor(s)
                                                            Event
                                   Date        Date
 Small Business Week              5/07 or                 New Haven,      Connecticut Small Business -
 Recognition Program               6/07                   CT              Key to the Future
 Vermont Small Business           6/6/07                  Burlington,     Vermont Business Magazine
 Award Winners 2007                                       VT
* The Agency provided this information based on approved cosponsorship agreements. Some events have not yet
  been held. This information has not been verified by the OIG.




                                                     42
                                    Appendices

                                      Appendix X
                               Legal Actions Summary
                        October 1, 2006 through March 31, 2007

                                                                                    Investigated
State   Program      Alleged Violation(s) Prosecuted             Legal Action
                                                                                    Jointly With
AL        DL      The co-owner of a charter plane            Co-owner indicted.     IRS, AAPD
                  company is alleged to have produced
                  fraudulent documents indicating that
                  SBA had released its lien against his
                  property on a defaulted September 11
                  disaster loan for $177,800. This
                  allowed him to receive $92,526, from
                  the sale of two properties, which
                  should have been paid to the SBA as
                  collateral on the loan.
CA        BL      The owner of a small airplane parts        Buyer and seller       FBI
                  business obtained a $999,000 SBA-          indicted.
                  guaranteed business loan to purchase
                  another parts business. The buyer
                  allegedly failed to disclose that he had
                  borrowed the $125,000 cash injection
                  from an associate of the seller.
CA       SBDC     The owner of a time management             Owner of time          FBI
                  company gave numerous cash gifts to a      management
                  State official in exchange for receiving   company pled guilty.
                  over $310,000 in SBDC contracts.           Other business owner
                  Another business owner is alleged to       indicted. State
                  have paid the same official over           official previously
                  $61,000 in return for being awarded        pled guilty and is
                  over $527,000 in contracts.                awaiting sentencing.
 FL       BL      A former hotel owner failed to disclose    Hotel owner indicted   None
                  a prior drug conviction when               and pled guilty.
                  completing an SBA Form 912,
                  Statement of Personal History, to apply
                  for a business loan.
 IL       BL      The former owner of an electrical          Former owner pled      FBI
                  supply store provided false tax returns    guilty.
                  in order to make the company appear
                  more profitable. This action
                  influenced the approval of a
                  $1.1 million SBA loan to the
                  purchasers of the business.




                                             43
                                    Appendices

                                      Appendix X
                                Legal Actions Summary
                        October 1, 2006, through March 31, 2007

                                                                                      Investigated
State   Program      Alleged Violation(s) Prosecuted             Legal Action
                                                                                      Jointly With
 IL       BL      A Chicago area business owner falsely      Business owner pled      DHS/ICE
                  claimed to be a U.S. citizen on his        guilty.
                  application for a $594,000 loan
                  through SBA’s 504 loan program.
                  When asked to provide evidence of
                  naturalization, he offered a $5,000 cash
                  bribe to an SBA official in order to
                  influence an official act.
LA        DL      An individual filed applications for       Individual pled guilty   DHS/OIG
                  SBA and FEMA disaster benefits             and was sentenced to
                  falsely claiming to have suffered          60 months probation
                  damages from Hurricane Katrina.            and ordered to pay
                  Based on her claim using a nonexistent     restitution of
                  address, she received an initial           $10,000.
                  disbursement of $10,000 of a $40,000
                  SBA disaster loan, as well as FEMA
                  benefits.
 MI       BL      Five individuals are alleged to be         Five individuals         USSS
                  involved in a multi-faceted scheme in      indicted. To date,
                  which borrowers are being fraudulently     administrative
                  qualified for SBA-guaranteed loans to      recoveries total
                  purchase gas stations. At least 76         $11,517,075.
                  loans, totaling almost $77 million, are
                  thought to be affected.
MS        DL      An individual claimed that his primary     Individual indicted.     DHS/OIG
                  residence was in Mississippi at the
                  time of the Gulf Coast hurricanes when
                  he allegedly resided in Maryland. He
                  was approved for an SBA loan of
                  $208,300, of which he received
                  $10,000.
MS        DL      An individual allegedly claimed his        Individual indicted.     DHS/OIG,
                  secondary address as his primary                                    USDA/OIG,
                  residence in an attempt to fraudulently                             MSAO
                  receive disaster assistance funds. He
                  was approved for a $78,900 loan from
                  SBA, of which the initial $10,000 had
                  been disbursed.




                                             44
                                    Appendices

                                      Appendix X
                                Legal Actions Summary
                        October 1, 2006, through March 31, 2007

                                                                                  Investigated
State   Program     Alleged Violation(s) Prosecuted             Legal Action
                                                                                  Jointly With
 NJ       BL      The former secretary of a now-defunct     Former secretary pled None
                  seafood wholesaler and the owner of a     guilty and sentenced
                  Maryland seafood business conspired       to 3 years probation
                  to prepare and submit false invoices to   and restitution of
                  induce a financial institution to lend    $143,618. Other
                  the wholesaler $219,504 from a            subject sentenced to
                  $400,000 SBA-guaranteed line of           6 months home
                  credit.                                   confinement, 5 years
                                                            probation and
                                                            restitution of
                                                            $73,344.
OH        BL      A business owner falsely represented      Business owner pled   DHS/ICE
                  that he was a citizen of the United       guilty.
                  States on his SBA loan application.
                  He was also charged with nine other
                  counts for immigration related
                  offenses.
 PA       BL      A businessman fraudulently obtained a     Both pled guilty.       FBI
                  $993,000 SBA-guaranteed loan by
                  pledging collateral not belonging to
                  him and falsely claiming to have made
                  a $250,000 cash injection. In support
                  of the loan application, an accountant
                  prepared a fraudulent tax record to
                  increase the likelihood of the loan
                  being approved.
 PR       GC      The head of the SBA’s 8(a) division in    SBA official            FBI,
                  Puerto Rico accepted monthly cash         sentenced to            GSA/OIG
                  payments totaling over $30,000 in         48 months in prison
                  exchange for awarding over                and 2 years
                  $16 million in SBA 8(a) sole-source       supervised release.
                  contracts to an engineering firm.
 TX       BL      A loan broker recruited unqualified       Broker was sentenced    FBI
                  borrowers to falsely obtain nine SBA-     to 5 years probation
                  guaranteed loans, totaling $9,500,000,    and restitution of
                  for convenience stores.                   $8,884,253 to be paid
                                                            jointly with four
                                                            other defendants.




                                             45
                                    Appendices

                                      Appendix X
                                Legal Actions Summary
                        October 1, 2006, through March 31, 2007

                                                                                     Investigated
State   Program      Alleged Violation(s) Prosecuted             Legal Action
                                                                                     Jointly With
TX        DL      An individual filed applications for      Individual was           DHS/OIG,
                  SBA and FEMA benefits falsely             sentenced to             SSA/OIG,
                  claiming to have incurred damages as a    39 months in prison,     USPIS,
                  result of the 2005 Gulf Coast             3 years supervised       DOL/OIG,
                  hurricanes. The SBA loan was              release, and             HUD/OIG
                  declined, but the individual received     restitution of
                  approximately $35,000 in FEMA             $34,948.
                  benefits.
TX        BL      Two individuals were involved in a        One individual           TABC
                  fraudulent scheme to secure a             sentenced to
                  $1 million SBA-guaranteed loan by         18 months in prison
                  submitting an inflated purchase           and 3 years
                  contract. The contract showed a sales     supervised release.
                  price of $1,320,000 for a convenience     The other sentenced
                  store when the true purchase price was    to 6 months home
                  only $788,617.                            confinement and
                                                            3 years probation.
                                                            Both ordered to pay
                                                            joint restitution of
                                                            $624,565.
TX        BL      An escrow officer, the owner of a         Owner of used            TCPA/CID
                  mortgage company, and the owner of a clothing business
                  used clothing business misrepresented     pled guilty. Other
                  the property purchase price and           two subjects
                  falsified part of the equity injection in convicted in a jury
                  order to secure a $2.4 million SBA-       trial. Three other co-
                  guaranteed loan to finance the purchase conspirators remain
                  of a warehouse. The defendants also       fugitives.
                  laundered approximately $473,000 of
                  the $1,846,469 of loan proceeds.
TX        BL      An applicant misrepresented his           Applicant sentenced      USPIS,
                  educational background, provided          to 27 months in          SSA/OIG
                  fraudulent tax returns, and provided      prison, 3 years
                  another person’s social security          supervised release,
                  number when applying for a $150,000       and restitution of
                  SBA business loan.                        $27,810.




                                             46
                                          Appendices

                                             Appendix X
                                       Legal Actions Summary
                               October 1, 2006, through March 31, 2007

                                                                                          Investigated
  State    Program         Alleged Violation(s) Prosecuted            Legal Action
                                                                                          Jointly With
   UT          BL       Three corporate officers of a landscape    All three officers     None
                        design firm submitted false loan           received 12 months
                        documentation in order to obtain two       of home confinement
                        separate SBA loans totaling $470,100.      and supervised
                        The officers failed to disclose in their   release and were
                        loan application that they owed            ordered to pay total
                        delinquent payroll taxes.                  restitution of
                                                                   $326,144.
   VA          BL       The former president of a consulting       Both pled guilty.      USPIS, IRS
                        firm and his wife were involved in an
                        internet scam to lure business owners
                        into applying for SBA loans. For a fee
                        of at least $3,500, the firm promised to
                        provide a comprehensive business plan
                        and an SBA-guaranteed loan to its
                        customers.
   WA          BL       The former owner of a hauling              Former owner           FBI, IRS
                        business allegedly made false              indicted.
                        statements regarding his company’s
                        tax liability to the SBA and to a
                        financial institution in order to obtain
                        an SBA-guaranteed loan of $750,000.
   WA          BL       The former owner of a cabinet making       Former owner           None
                        business inflated his Personal Financial   sentenced to
                        Statement and failed to disclose a prior   12 months and a day
                        bankruptcy when he applied for a           in prison, 5 years
                        $1.5 million SBA-guaranteed loan to        supervised release,
                        purchase the cabinet making business.      and restitution of
                                                                   $886,506.
Program Codes: BL=Business Loans; DL=Disaster Loans; GC=Government Contracting and Section 8(a)
Business Development; SBDC=Small Business Development Center Joint-investigation Federal Agency
Acronyms: AAPD=Auburn Alabama Police Department; DHS/ICE=Department of Homeland
Security/Immigration and Customs Enforcement; DHS/OIG=Department of Homeland Security/OIG;
DOL/OIG=Department of Labor/OIG; FBI=Federal Bureau of Investigation; GSA/OIG=General Services
Administration/ OIG; HUD/OIG=Housing and Urban Development/OIG; IRS=Internal Revenue Service;
MSAO=Mississippi State Auditor’s Office; SSA/OIG=Social Security Administration/OIG; TCPA/CID=Texas
Controller of Public Accounts/Criminal Investigative Division; TABC=Texas Alcoholic Beverage Commission;
USDA/OIG=Department of Agriculture/OIG; USPIS=United States Postal Inspection Service; USSS=United States
Secret Service




                                                   47
                                                                         Appendix XI
                                                                 Small Business Administration
                                                                  Office of Inspector General



                                                                              Inspector
                                                                               General
                                                                                                                            Counsel Division
                                                                          Deputy Inspector
                                                                             General




          Auditing Division                                                                Investigations Division                             Management and Policy
                                                        Security Operations                                                                          Division



                                 Business Development
     Credit Programs
48




                                   Programs Group
         Group                                                                Eastern Region             Central Region          Southern Region           Western Region

                                  Washington, DC
        Atlanta, GA
                                                                                 Atlanta, GA               Chicago, IL            New Orleans, LA            Denver, CO


        Chicago, IL            Financial Management
                                    & IT Group                                  Herndon, VA                Dallas, TX              Miami, FL                 Los Angeles, CA


       Herndon, VA                Washington, DC
                                                                               New York, NY                Detroit, MI                                       Tacoma, WA


      Los Angeles, CA
                              Disaster Programs Group                          Philadelphia, PA            Houston, TX


      Washington, DC
                                     Dallas, TX                                Washington, DC             Kansas City, MO




                                  New Orleans, LA




                                  Washington, DC
                       Make A Difference
To promote integrity, economy, and efficiency, we encourage you to report
instances of fraud, waste, or mismanagement to the SBA OIG HOTLINE.*




                                    CALL
                           1-800-767-0385 (Toll Free)




                            Write or Visit
                      U.S. Small Business Administration
                          Office of Inspector General
                            Investigations Division
                       409 Third Street, SW. (5th Floor)
                            Washington, DC 20416

                       Or E-mail Us at OIG@SBA.GOV




*Upon request, your name will be held in confidence.
